No. ______
IN THE
_______________
WHEELER K. NEFF,
Petitioner,
v.
UNITED STATES OF AMERICA,
________________

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Third Circuit
________________
PETITION FOR A WRIT OF CERTIORARI
________________
BRUCE A. ANTKOWIAK
Saint Vincent College
300 Fraser Purchase Road
Latrobe, PA 15658
724-805-2940

ADAM B. COGAN
Counsel of Record
218 West Main Street
Ligonier, PA 15658
adamcogan@aol.com
724-995-8579

Counsel for Petitioner

i
QUESTIONS PRESENTED

The questions presented are:
1. Does a misrepresentation about the true identity of the owner of a business during settlement negotiations to resolve a civil lawsuit constitute a
scheme to defraud the litigant of money or property
in violation of the mail and wire fraud statutes?
2. Is the doctrine of tribal sovereign immunity
wholly inapplicable in a circumstance where payday
loans are made by a Native American tribe in affiliation with an entity acting as an “arm of the tribe”
where such loans are made at interest rates in excess
of state regulations, thus rendering the loans ipso
facto unlawful debts in violation of the RICO statute?
3. Does the government have to prove willfulness
to establish a RICO conspiracy to collect an unlawful
debt?

ii
RELATED PROCEEDINGS
Charles Hallinan, the Petitioner’s co-defendant at
trial and co-appellant on appeal, has also petitioned
this Court for a writ certiorari from the judgment entered by the United States Court of Appeals for the
Third Circuit at Charles M. Hallinan v. United
States, No. 19-1087.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED ........................................ I
RELATED PROCEEDINGS ....................................... II
TABLE OF AUTHORITIES ....................................... VI
PETITION FOR A WRIT OF CERTIORARI .............. 1
OPINIONS BELOW .................................................... 1
JURISDICTION .......................................................... 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED .................................... 1
STATEMENT OF THE CASE ..................................... 2
REASONS FOR GRANTING THE PETITION .......... 4
I.

THE LOWER COURT PERMITTED AN
UNPRECEDENTED EXPANSION OF THE
MAIL AND WIRE FRAUD STATUTES BY
AFFIRMING A CONVICTION BASED ON
THE
THEORY
THAT
A
MISREPRESENTATION
CONCERNING
THE TRUE OWNER OF A BUSINESS
DURING THE COURSE OF SETTLEMENT
NEGOTATIONS TO RESOLVE A CIVIL
CLAIM DEPRIVED THE PLAINTIFFS OF
MONEY OR PROPERTY WHERE NO
MONEY OR PROPERTY WAS SOUGHT OR
OBTAINED ........................................................... 4

II. THE
TRIAL
COURT’S
JURY
INSTRUCTION, AFFIRMED BY THE
COURT OF APPEALS, CONTAINED A
FUNDAMENTAL ERROR OF LAW IN
HOLDING THAT THE ESTABLISHED
DOCTRINE OF TRIBAL SOVEREIGN

iv
IMMUNITY
WAS
CATEGORICALLY
INAPPLICABLE TO WHETHER THE
PAYDAY LOANS AT ISSUE WERE
UNLAWFUL DEBT ............................................ 19
III. THE
TRIAL
COURT’S
JURY
INSTRUCTION WAS FUNDAMENTALLY
INCORRECT AS IT DID NOT SPECIFY
THAT WILLFULNESS WAS REQUIRED TO
PROVE A RICO CONSPIRACY......................... 35
CONCLUSION .......................................................... 37
APPENDIX A:
OPINION OF THE COURT OF APPEALS
(SEPT. 6, 2019) ...................................................... 1A
APPENDIX B:
ORDER OF THE COURT OF APPEALS DENYING
PETITION FOR REHEARING EN BANC (NOV. 5,
2019) ................................................................... 30A
APPENDIX C:
UNITED STATES CODE, CRIMES AND CRIMINAL
PROCEDURE, 18 U.S.C. § 1341 ............................ 32A
APPENDIX D:
UNITED STATES CODE, CRIMES AND CRIMINAL
PROCEDURE, 18 U.S.C. § 1343 ............................ 34A
APPENDIX E:
ARTICLE I, SECTION 8 OF THE UNITED STATES
CONSTITUTION ..................................................... 35A
APPENDIX F:
UNITED STATES CODE, CRIMES AND CRIMINAL
PROCEDURE, 18 U.S.C. § 1962 ............................ 38A

v
APPENDIX G:
EXCERPT OF JURY CHARGE OF COURT
(NOV. 20, 2017) ................................................... 40A

vi
TABLE OF AUTHORITIES
FEDERAL CASES:
AT&T Mobility LLC v. Concepcion,
563 U.S. 333 (2011) ................................................ 5
Allen v. Gold County Casino,
464 F.3d 1044 (9th Cir. 2006) .............................. 24
Bennett v. Superintendent,
886 F.3d 268 (3d Cir. 2018) ................................. 32
Cabazon Band v. Smith,
388 F.3d 691 (9th Cir. 2008) ................................. 24
California v. Cabazon Band of Mission
Indians,
480 U.S. 202 (1987) .............................................. 24
Carpenter v. United States,
484 U.S. 19 (1987) .................................................. 9
Cleveland. v. United States,
531 U.S. 12 (2000) ...................................... 9, 10, 17
Elonis v. United States,
575 U.S. 723 (2015) ................................................ 6
Francis v. Franklin,
471 U.S. 307 (1985) .............................................. 33
Inyo County v. Paiute-Shoshone
Indians,
538 U.S. 701 (2003) .............................................. 24

vii
Kiowa Tribe of Oklahoma v. Mfg.
Technologies, Inc.,
523 U.S. 751 (1998) ...................................... passim
Liparota v. United States,
471 U.S. 419 (1985) .............................................. 35
McNally v. United States,
483 U.S. 350 (1987) ...................................... passim
Michigan v. Bay Mills Indian Cmty.,
572 U.S. 782 (2014) ...................................... passim
Morissette v. United States,
342 U.S. 246 (1952) ........................................ 17, 35
Pasquantino v. United States,
544 U.S. 349 (2005) .................................... 9, 10, 11
Prairie Band Nation v. Wagnon,
475 F.3d 818 (10th Cir. 2007) ............................... 24
Sekhar v. United States,
570 U.S. 729 (2013) ........................................ 11, 12
Staples v. United States,
511 U.S. 600 (1994) .............................................. 35
United States v. Gaudin,
515 U.S. 506, 511 (1995) ...................................... 26
United States v. Henry,
29 F.3d 112 (3d Cir. 1994) ................................... 13
United States v. Hird,
913 F.3d 332 (3d Cir. 2019) ......................... passim

viii
United States v. Jones,
471 F.3d 478 (3d Cir. 2006) ................................... 6
United States v. Korey,
472 F.3d 89 (3d. Cir. 2007) .................................. 32
United States v. Makkar,
810 F.3d 1139 (10th Cir. 2015) ............................ 32
United States v. Walters,
997 F.3d 1219 (5th Cir. 1993) ......................... 14, 15
United States v. Weimert,
819 F.3d 351 (7th Cir.2016) .................................. 13
Williams v. Big Picture Loans, LLC,
929 F.3d 170 (4th Cir. 2019) .......................... 24, 25
FEDERAL STATUTES:
18 U.S.C. § 1341 ................................................ passim
18 U.S.C. § 1343 ................................................ passim
18 U.S.C. § 1951 ........................................................ 11
18 U.S.C. § 1961(6) .................................................... 26
18 U.S.C. § 1962(d) .................................................... 19
OTHER AUTHORITIES:
Black’s Law Dictionary, 2018 ................................... 15

ix
Bree Black Horse, The Risk and
Benefits of Tribal Payday Lending to
Tribal Sovereign Immunity: Tribal
Payday Lending Enterprises are
Immune Under a Proposed Universal
Arm-of-the Tribe Test, 2 American
Indian Law Journal, 388 (2017) .......................... 28
Mail and Wire Fraud, 55 American
Criminal Law Review, 1447 (2018) ....................... 8
The Hon. William Canby, American
Indian Law, Sixth Edition, (West
Publishing, 2015) ................................................. 23
Grant Christensen, A View from
American Courts: The Tear in
Indian Law 2017, 41 Seattle Law
Review, 805 (2018) ............................................... 27
Richard B. Collins, To Sue and Be Sued:
Capacity and Immunity of American
Indian Nations, 51 Creighton L.Rev.
391 (March, 2018) ................................................ 29
Adam Crepple, Tribal Lending and
Tribal Sovereignty, 66 Drake L. Rev.
1 (2018) ................................................................. 29
Victor Lopez, When Lenders Can
Legally Provide Loans Above 1000%
Is It Time for Congress to Consider
Federal Interest Cap on Consumer
Loans?, 42 Journal of Legislation 36
(2016) .................................................................... 29

x
Nathalie Martin and Joshua Schwartz,
The Alliance Between Payday
Lenders and Tribes: Are Both Tribal
Sovereignty and Consumer
Protection at Risk? 69 Wash and Lee
L.Rev. 751 (2012) ................................................. 30
Adam Mayle, Usury on the Reservation,
31 Rev. of Banking & Fiduciary Law
1054 (2012) ........................................................... 31
Shane Mendenhall, Payday Loans: The
Effect of Predatory Lending, 32 Ok.
City L. Rev. 299 (2007) ........................................ 29
Hillary B. Miller, The Future of Tribal
Lending Under the Consumer
Finance Protection Bureau,
Amercian Business Law Today
(2013) .................................................................... 29
Ellen S. Podgor, White Collar Crime,
Second Edition, 77 (2018) .................................... 12
Jed S. Rakoff, The Federal Mail Fraud
Statute (Part One), 18 Duq. Law Rev.
4 (1980) ................................................................. 17
Note, The Supreme Court 2013 Term,
128 Harvard Law Review, 301-305
(2014) .................................................................... 23
Note, Tribal Sovereign Immunity and
the Need for Congressional Action, 59
Boston College Law Review, 2469
(2018) .................................................................... 29

xi
Note, Tribal Lending Under CFPB
Enforcements: Tribal Sovereign
Immunity and The “True Lender”
Distinction, 23 NC Banking Institute
Journal, 401 (March, 2019) ................................. 31

1
PETITION FOR A WRIT OF CERTIORARI
Wheeler Neff respectfully petitions this Court for
a writ of certiorari to review the judgment entered in
this case by the United States Court of Appeals for
the Third Circuit following his criminal conviction.
OPINIONS BELOW
The Third Circuit’s decision affirming Petitioner’s
counts of conviction (Pet. App. 1a-29a) is reported at
United States v. Neff, 787 Fed. App’x 89 (3d. Cir. Sep.
6, 2019). The Third Circuit’s en banc decision denying Petitioner’s motion for rehearing is not reported.
Pet. App. 30a-31a.
JURISDICTION
The Third Circuit issued its opinion and entered
judgment on September 6, 2019, and denied a timely
motion for rehearing on November 5, 2019. See Pet.
App. 30a-31a. On January 10, 2020 Justice Alito extended the time to file a petition for a writ of certiorari to and including April 1, 2020. The jurisdiction
of this Court is invoked under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The relevant constitutional and statutory provisions (Article I, Section 8 of the United States Constitution, 18 U.S.C. § 1341, 18 U.S.C. § 1343, and 18
U.S.C. § 1962) are reproduced in the appendix to this
petition. See Pet. App. 32a-39a.

2
STATEMENT OF THE CASE
Lawyer Wheeler Neff was a sole practitioner for
the last 17 years in Delaware with considerable experience in the lending and banking fields as a former Deputy Attorney General and Counsel to the Office of the Delaware State Bank Commissioner. Subsequent to that, he served as counsel to the banking
and credit card operations of Beneficial Corporation
and its three federally chartered banks in the consumer loan field. For a period of a few years prior to
2013, he represented various entities serving as servicing agents for payday loans made under the auspices of Native American tribes.
In 2016, the government charged that the advice
Neff gave those clients and the payday lending activities in which they engaged rendered them guilty of a
RICO conspiracy to charge customers interest rates
that exceeded state usury laws, despite application of
the established doctrine of tribal sovereign immunity
which would have exempted the tribal loans from
state regulation. Neff and one of his principal clients,
Charles Hallinan, were also charged under the
mail/wire fraud statutes with allegedly devising a
scheme to defraud the plaintiffs in an Indiana class
action lawsuit involving payday lending by concealing information regarding Hallinan’s ownership of
APEX, a payday loan servicing company, during settlement negotiations.
The question at trial was whether Neff, after
nearly 70 years of living a life unblemished by any
criminal charges or professional discipline, abandoned all of that to embrace a conspiracy with Hallinan to openly engage in widespread lending practices

3
that he knew violated the federal racketeering law.
This fateful decision, otherwise inexplicable, was, as
the theory went, motivated solely by his receipt of
normal legal fees that he charged to other clients.
After a nearly two-month trial, Neff was convicted of all counts of the indictment.
At sentencing, the government initially sought a
sentence for Neff of between 262 and 327 months incarceration with the District Court ultimately concluding that Neff was responsible for causing a staggering amount of loss in excess of $9.5 million to the
Indiana plaintiffs under USSG § 2B1.1.
After departing and varying downward to a degree from the United States Sentencing Guidelines,
the District Court sentenced the then nearly 70 year
old Neff to 8 years incarceration, 3 years supervised
release and a $50,000 fine, the Court further ordering that Neff forfeit his interest in the home that he
shared with his wife from which he practiced law.
On appeal, the Third Circuit Court of Appeals affirmed the judgments imposed against Neff and Hallinan finding that: 1) the deception about Hallinan’s
ownership with respect to APEX in connection with
the Indiana lawsuit deprived the plaintiffs of money
or property in violation of the mail and wire fraud
statutes; 2) tribal sovereign immunity did not shield
payday loans from Pennsylvania’s usury rate limitations; and, 3) willfulness was not required to be

4
proven to establish a RICO conspiracy.1
REASONS FOR GRANTING THE PETITION
I. THE LOWER COURT PERMITTED AN
UNPRECEDENTED EXPANSION OF THE
MAIL AND WIRE FRAUD STATUTES BY
AFFIRMING A CONVICTION BASED ON
THE
THEORY
THAT
A
MISREPRESENTATION
CONCERNING
THE TRUE OWNER OF A BUSINESS
DURING THE COURSE OF SETTLEMENT
NEGOTIATIONS TO RESOLVE A CIVIL
CLAIM DEPRIVED THE PLAINTIFFS OF
MONEY OR PROPERTY WHERE NO
MONEY OR PROPERTY WAS SOUGHT OR
OBTAINED.
The facts pertaining to the mail/wire fraud counts
in this case are both simple and, for purposes of this
appeal, undisputed.
After a group of plaintiffs in Indiana brought a
class action suit against APEX 1 Processing, the
company which serviced the payday loans that were
made to them, a question arose as to the ownership
of APEX. The government charged in counts three
through eight of the indictment that Neff and his codefendant Charles Hallinan misrepresented to these
plaintiffs that Hallinan was not the principal owner
of APEX, the result of which would be that he would
not be personally liable for any judgment that might
Charles Hallinan’s petition for a writ certiorari was
filed on March 4, 2020.
1

5
be obtained against APEX if the litigation had gone
to trial and verdict. The government’s theory was
that this misrepresentation, made while the case was
pending and during the time the parties were negotiating a voluntary settlement of the claim, somehow
constituted a deprivation of money or property cognizable under the mail/wire fraud statutes, Title 18
U.S.C. §§ 1341 and 1343.
The misrepresentation at issue did not go to the
extent of the injury the plaintiffs purportedly suffered nor to the statutory or other damages in question but was limited to the question of whether the
deep pocket defendant, Hallinan, could possibly be
joined in the lawsuit.2
On appeal, Neff argued that the evidence offered,
in the light most favorable to the government, did
not constitute mail/wire fraud since no “money or
The plaintiffs were aware of Hallinan’s actual position with respect to APEX prior to the time they
agreed to settle the case for $260,000. The plaintiffs’
attorney testified that he received a letter received
from an Assistant United States Attorney investigating Hallinan six months prior to the settlement that
made him aware that Hallinan could be joined as a
defendant. Tactically, however, the plaintiffs chose
not to do so because his presence would create diversity jurisdiction and result in the transfer of the case
to federal court where an arbitration clause would
likely have been enforced and their recovery would
have been limited to an amount far less than what
the case actually settled for pursuant to AT&T Mobility LLC v. Concepcion, 563 U.S. 333 (2011).
2

6
property” of the alleged victims was sought to be obtained by the defendants through the misrepresentation as to ownership since, at the time the misrepresentation was made, the plaintiffs had nothing but
an un-adjudicated civil claim without any legal entitlement to damages. Accordingly, Neff asserted that
the plain error doctrine should cause the dismissal of
these counts. See, United States v. Jones, 471 F.3d
478 (3rd Cir., 2006). These counts of conviction and
the concomitant amount of loss calculations had an
enormous impact on Neff’s sentencing guideline calculations and were otherwise prejudicial to him at
trial.
In the course of these appeals, the government
has essentially been challenged to cite to any appellate court decision which has interpreted a misrepresentation made in the course of a negotiation to settle an un-adjudicated civil claim to be a cognizable
offense under statutes that prohibit devising or intending to devise “any scheme or artifice to defraud,
or for obtaining money or property by means of false
or fraudulent pretenses representations or promises.” Title 18 U.S.C. §§ 1341 and 1343. The government has failed to do so. This failure is not because
of the government’s incapacity as legal researchers
but reflects the fact that no case has ever expanded
these statutes into an area such as this which is so
clearly outside the realm Congress has authorized.
By accepting this case for review, the Court will
once again draw the proper line circumscribing these
statutes and restrain the unfortunately recurring
tendencies of federal prosecutors to attempt to extend them by executive fiat instead of by proper ap-

7
plication to Congress for amendments in accord with
the doctrine of separation of powers.
The offenses charged here were not cognizable
under the federal fraud statutes for three reasons,
any one of which would be sufficient to render them
subject to dismissal. First, there was no “property” of
the alleged victim that the defendants sought to obtain by fraud. Second, there was no scheme to “defraud” since being deceived by a falsehood does not
always equate to being defrauded. And third, the defendants did not seek to “obtain” anything from the
victims by the alleged misrepresentation.
A. “Property”
The mail/wire fraud statutes are about the protection of individuals from the theft of their property
by those who wish to obtain it through a scheme to
defraud.
This point was made compellingly in
McNally v. United States, 483 U.S. 350 (1987) when
this Court struck down the vast expansion of the
mail fraud statute proposed by the government to
take its simple and direct wording and apply it to
situations where politicians and others allegedly deprived citizens of their right to the honest services of
their government officials. In McNally, this Court
looked at the 19th century origins of the mail fraud
statute as it was proposed in a recodification of the
postal laws in 1872. As the Court noted:
The sponsor of recodification stated, in
apparent reference to the anti-fraud
provision, that measures were needed
“to prevent the frauds which are mostly
gotten up in the large cities… by thieves

8
forgers and rapscallions generally, for
the purpose of deceiving and fleecing
the innocent in the country.” Insofar as
the sparse legislative history reveals
anything, it indicates that the original
impetuous behind the mail fraud statute was to protect the people from
schemes to deprive them of their money
or property.
Id. at 356. See also, Mail and Wire Fraud, 55 American Criminal Law review, 1447, 1458 (2018).
McNally’s reading of this history made it clear
that when Congress used the term “property” in this
statute, it meant the clear and common understanding of that term, precluding from the statute’s reach
any deception that would deprive an individual of an
expectation of some fairness of process or other interest which was not traditionally and rigorously understood to be equal to cash in hand of a victim that
a fraudulent actor might seek to obtain. Id. at 359360. This requirement is also mandated by the maxim of statutory interpretation that holds that, where
there is more than one rational reading of a criminal
statute, a Court may choose the harsher one only
when Congress “has spoken in clear and definitive
language” since there are no constructive offenses in
the federal system. McNally at 359-360.
While this Court would sensibly and properly
note soon after McNally that an established property
interests may sometimes be of the intangible variety,
(such as confidential, proprietary information of a
company) that could be embezzled or taken by fraud

9
raising an offense under these statutes, Carpenter v.
United States, 484 U.S. 19, 25 (1987), “property” is
not so fungible a concept as to permit artistic and
creative expansions of it at a prosecutor’s whim. Indeed, if there is any suggestion that the word itself is
ambiguous, resolution of ambiguity in a criminal
statute is to be made in favor of lenity with the adoption of the stricter interpretation required. Cleveland v. United States, 531 U.S. 12, 25 (2000).
In Cleveland, the issue was the obtaining of video
poker licenses from the state through misrepresentations by those who sought the licenses. While the
license in the hands of the defendant would be property, this Court held that the focus of the mail fraud
statute is on whether the license would be property
while in possession of the state since a cognizable
mail fraud scheme must seek to separate a victim
from their property and effect a transfer thereof to
the defendant. Id. at 26. Nonetheless, the Court rejected the idea that the state had a property interest
in the license before it was issued, sensibly indicating that the state was really utilizing a regulatory
process in which the license was a non-property feature. Id.
The Court of Appeals in this case cited in passing
the cases of Pasquantino v. United States, 544 U.S.
349 (2005) and United States v. Hird, 913 F.3d 332
(3rd Cir., 2019) as cases sufficiently similar to Neff’s
circumstance to permit affirmance of the conviction.
Pet. App. 15a-18a. In fact, these two cases are
strong authority against this proposition and further
support the position Neff has taken in this matter.

10
Pasquantino concerned a scheme to smuggle liquor into Canada and thereby avoid paying the excise
tax to the Canadian government. This Court realized that once the liquor crossed the international
border, Canada had a legal entitlement to the tax
revenue and the scheme was meant to deprive the
Canadian government of the funds to which they
were entitled. As the Court put it, the right to collect
the excise taxes was a property right since it constituted “an entitlement to collect money from the defendant, the possession of which is something of value to Canada.” Id. at 355. Since the collection of excise taxes was a “valuable entitlement” to the Canadian government that arose automatically at the
time the liquor was imported, “had petitioners complied with this legal obligation, they would have paid
money to Canada, making their actions the same
thing as if they had embezzled funds already within
the Canadian treasury.” Id. at 356. The Court found
that its decision did not conflict with Cleveland because the scheme to deprive Canada of money was
meant to deprive it of something to which “it was entitled by law.” Id. at 357.
In United States v. Hird, 913 F.3d 332 (3rd Cir.,
2019), officials in the Philadelphia Municipal Traffic
Court system rigged the process to prevent and frustrate the ability of the city and the Commonwealth to
collect fines and costs on judgments obtained in motor vehicle infraction cases. The Hird indictment itself stated that the actions of the defendants deprived the government of funds to which it was “entitled” Id. at 339, and the key to the scheme was that
the process “was rigged to produce only judgments

11
that impose lower fines-or most often, no fines and
costs at all.” Id. at 341-342.
So while Pasquantino and Hird each properly
note that a clear legal entitlement may constitute
property for the purposes of these statutes, it is
equally clear that the plaintiffs in Indiana had nothing to which they were entitled by law at the time of
the misrepresentation as to the true owner of APEX.
The plaintiffs had gone to Court in Indiana seeking
to get an entitlement to get money from APEX or
others through winning a judgment that would have
given them the right to collect whatever damages the
Court awarded. But since at the time of these negotiations they had no judgment entered against APEX
or anyone else, they had no legal entitlement which
could be identified as “property” in conformity with
the federal fraud statutes.
The critical importance of understanding the limited nature of the term “property” was emphasized
by this Court in the related context of a Hobbs Act
prosecution in Sekhar v. United States, 570 U.S. 729
(2013). The Hobbs Act prohibits “the obtaining of
property of another” through extortion. 18 U.S.C. §
1951. In Sekhar, a company official sought to
threaten the attorney for a state agency to recommend that funds of the agency be invested in the defendant’s brokerage firm. This Court dismissed the
case finding that no “property” was sought to be obtained.
Conceptually, the Hobbs Act and mail/wire fraud
are cousins in the same family. Both seek to protect
a victim from having their property taken from them
by a perpetrator, with the principle difference be-

12
tween the two being the means by which the taking
is to be effected. Under the Hobbs Act, it is through
extortion while under mail/wire fraud it is to be
through deception. In Sekhar, this Court held that
the phrase “obtaining of property” requires both a
deprivation and an acquisition, mandating that the
scheme be one to have a victim part with his property and transfer it to the control of another. Since
Sekhar was not trying to obtain the power of the
agency to make a recommendation but was rather
simply trying to coerce the official into making the
recommendation, the Court found that no cognizable
Hobbs Act violation had occurred.
The mail fraud statute means the same thing as
the Hobbs act in this critical respect. The phrase
“whoever having devised a scheme or artifice to defraud or for the purpose of obtaining money or property” means obtaining the property of another. As
the McNally Court recognized, this was the statute’s
meaning since its inception. Mail/wire fraud, like
the Hobbs Act, works to protect a victim from being
separated from their property and vesting control of
it with the defendant.
Here, at the moment the alleged misrepresentation was made, the plaintiffs possessed nothing that
any Court has ever construed as “property” for the
purposes of these related federal criminal statutes.
B. “To Defraud”
The law is clear that a scheme to deceive does not
constitute mail or wire fraud as a scheme to deceive
does not involve the taking of money or property.
Rather, it is only a scheme to defraud someone out of

13
their money or property that is actionable as a mail
or wire fraud. Ellen S. Podgor, White Collar Crime,
Second Edition, 77 (2018). While a scheme to deceive
may be unethical and morally wrong, all lies and
misrepresentations are not converted into mail fraud
because someone affixes postage to them and deposits them in a Post Office.
Indeed, courts have recognized that deception and
misdirection are unfortunately common in negotiation and it is only where a party uses such prevarications to separate a victim from their property that a
mail or wire fraud occurs. United States v. Weimert,
819 F.3d 351 (7th Cir. 2016).
Where what has happened is that an innocent
party is deceived about the fairness or legitimacy of a
process like bidding or negotiation, no federal fraud
occurs. In United States v. Henry, 29 F.3d 112 (3rd
Cir., 1994), government officials rigged a bidding
process to steer funds controlled by a commission to
a certain bank. The Court dismissed the mail fraud
counts finding that the only thing the other banks
were deprived of was their interest in a fair bidding
process. While that process would be a valuable consideration to them, it was not a property right cognizable under the mail fraud statute. Id. at 115.
And the mere fact that the winning bank and others
profited from the scheme financially did not convert
the scheme into one prosecutable under the mail
fraud statute since there was no property of the victim that was sought to be obtained by the defendants.
Like the other banks in Henry, every civil litigant
hopes that the process of negotiating a settlement

14
will be open, fair and honest. When that expectation
is violated by an intentional misrepresentation, penalties can be assessed by numerous state statutes
and regulations, not the least of which would involve
the professional discipline of the attorneys involved.
But the expectation of a fair and open negotiation
process free of any hint of deceit is not, when unfulfilled, a cognizable issue under the federal fraud
statutes.
C. “To Obtain”
Reduced to their essence, the federal fraud statutes are meant to prevent theft accomplished not by
threatening a victim with a gun or by surreptitiously
breaking into the victim’s house at night, but by using lies and deception to transfer to the perpetrator
the property of the victim, obtaining it by transferring control of it from them to him. The notion that
a scheme to defraud properly cognizable under these
statutes requires a transfer of property currently
possessed by the victim to the defendant is another
reason why a prosecution under these statutes is not
conceptually possible here.
In United States v. Walters, 997 F.2d 1219 (5th
Cir., 1993), the mail fraud charged involved a sports
agent secretly signing amateur players to professional contracts and thereby making them ineligible
to play for their college teams. That ineligibility also
meant that the colleges to which misrepresentations
about the amateur status were made wasted the
money spent on scholarships for the players. Walters, of course, got none of the scholarship money
himself.

15
The government argued that neither an actual
nor potential transfer of property from a victim to a
defendant was essential in a federal fraud case and
that the only thing important was that victim lost
something that was valued. Id. at 1224. The Fifth
Circuit ridiculed this position, pointing out that no
case from this Court dealing with mail/wire fraud
has ever involved a scheme in which a defendant neither obtained nor tried to obtain the victim’s property through a fraudulent scheme. Id. at 1226. The
Court found that both the scheme or artifice to defraud clause and the clause prohibiting the obtaining
money or property contemplate a transfer of some
kind between the victim and the perpetrator. Without that, no mail/wire fraud could occur. Since Walters did not seek to obtain anything from the colleges, no fraud prosecution could be sustained even
though the colleges lost money because of player ineligibility.
At the time of the misrepresentation, the victims
had nothing Neff and Hallinan wished to deprive
them of since all the victims “had” was unadjudicated claim (in other words, a legal assertion
or demand - Black’s Law Dictionary, 2018) against
APEX that gave them no entitlement to anything.
Neff and Hallinan did not want to acquire any claim
the plaintiffs had against APEX and they did nothing to seek to transfer anything from the plaintiffs.
Indeed, the defendants here did nothing to take
from the plaintiffs any avenue of redress the plaintiffs had to seek the judgment/entitlement that they
otherwise could access. Hird spoke to the fact that
the scheme there broadly undercut the ability of the

16
city and Commonwealth to obtain judgments in the
first place by obviating the entire process to obtain
them. The scheme was meant to interfere with the
judgment process and take it out of the hands of government to prevent fines and costs from being imposed. Id. at 343. The scheme meant to corrupt the
process by which they could be collected.
But here, there was no rigging of the process as
the misrepresentation had no effect on the legal process by which the plaintiffs could access the courts of
Indiana in an effort to obtain a judgment and realize
an entitlement to get money from defendants against
whom that judgment was entered. Nothing that the
defendants did by way of any misrepresentation deprived the plaintiffs of their ability to seek a judgment or access fully the process by which one could
be obtained. Nothing was sought to be transferred
from the alleged victims to Neff and Hallinan.
C. Conclusion.
If the decision in this case is to be upheld, it will
be the first time in the history of these statutes that
a circumstance not involving “property,” not involving a scheme “to defraud,” and not involving an attempt “to obtain” the property of another was judged
sufficient. And such upholding will violate basic
Constitutional principles and invite more in the future.
The mail/wire fraud statutes have always proved
seductive to federal prosecutors. As one former federal prosecutor who later became a District Court
judge has written, “the mail fraud statute is our
Stradivarius, our Colt 45, our Louisville Slugger, our

17
Cuisinart – and our true love. We may flirt with
RICO, show off with 10b-5, and call the conspiracy
law ‘darling’ but we always come home to the virtues
of 18 U.S.C. 1341, with its simplicity, adaptability,
and comfortable familiarity.” Jed S. Rakoff, The Federal Mail Fraud Statute (Part One), 18 Duq. Law
Rev. 4 (1980). This ode to the fraud statutes makes
light, however, of an ominous undertone. The history
of these statutes shows that despite the boundaries
the Courts have set for their use, prosecutors regularly seek to expand their reach even though Congress has given no such explicit authorization.
It is the duty of the Courts to reign them in. As
this Court said in Morissette v. United States, 342
U.S. 246 (1952), there are times when “[t]he government asks us by a feat of construction radically to
change the weights and balances in the scales of justice.” Id. at 263. When this occurs, the Court must
remember that “[t]he spirit of the doctrine which denies to the federal judiciary power to create crimes
forthrightly admonishes that we should not enlarge
the reach of enacted crimes by constituting them
from anything less than the incriminating components contemplated by the words used in the statute.” Id.
Both McNally and Cleveland reiterated this
point, warning that the outer boundaries of criminal
statutes cannot be left ambiguous and that expansion of them is a matter left to the legislative branch:
“If Congress desires to go further it must speak more
clearly than it has.” McNally supra. at 360. And the
Court in Cleveland held that its decision was not
simply based on the fact that the government’s con-

18
struction would stray from traditional concepts of
property but added: “we resist the government’s
reading of Section 1341 as well because it invites us
to approve a sweeping expansion of federal criminal
jurisdiction in the absence of a clear statement by
Congress.” Id. at 24.
The same admonition resonates here as well.
Never before has any federal Court given approval to
a mail/wire fraud prosecution involving a circumstance of the kind presented by this record. Failing
to reverse the lower Courts will invite a massive expansion of the fraud statutes into areas Congress has
clearly not intended. If the flood of new federal criminal prosecutions such an expansion will bring is actually desired, that decision should be left in the
hands of Congress.
Accordingly, pursuant to Rule 10(a), Rules of the
Supreme Court of the United States, certiorari
should be granted because the Circuit’s opinion, a)
conflicts with every other opinion by this Court and
other Circuits on this point; and, b) so far departs
and sanctions the lower Court’s departure from accepted and usual judicial proceedings by expanding
without Congressional authorization a federal criminal statute that the exercise of this Court’s supervisory power is warranted.

19
II. THE TRIAL COURT’S JURY INSTRUCTION,
AFFIRMED BY THE COURT OF APPEALS,
CONTAINED A FUNDAMENTAL ERROR OF
LAW
IN
HOLDING
THAT
THE
ESTABLISHED DOCTRINE OF TRIBAL
SOVEREIGN
IMMUNITY
WAS
CATEGORICALLY
INAPPLICABLE
TO
WHETHER THE PAYDAY LOANS AT ISSUE
WERE UNLAWFUL DEBT.
The gravamen of the charge set forth in Counts 1
and 2 of the present indictment was that, during the
period 2007 to 2013, Neff and Hallinan conspired to
commit RICO in violation of §1962(d) of Title 18,
U.S.C., “through the collection of unlawful debt.”
Of course, neither Neff nor Hallinan loaned any
money to anyone during that time. The loans were
made by internet businesses that were set up explicitly to operate as legitimate “arms” of the Native
American Indian tribes under whose auspices the
loans were being issued. If the loans were made by
an Indian tribe through an entity properly operating
as an “arm of the tribe,” then, pursuant to the
longstanding and established doctrine of tribal sovereign immunity, the loans were lawful despite the
fact that they were issued at interest rates that exceeded state usury limits. That was the law during
the indictment period, and it is the law today.
And if the loans issued by the tribes and their
“arms” were lawful, neither Neff nor Hallinan could
be guilty of these two counts.
Prior to advising his clients regarding the proper
way to structure these arrangements, Neff engaged

20
in extended research and drew upon his considerable
experience as a lawyer with an unblemished personal and professional record of practice in the commercial area. His view was shared by many lending institutions, Native American tribes and a wide spectrum of attorneys in the field at the time.3 The view
continues to be held by Native American tribes
which issue such loans to this day.
On its face, the indictment did not dispute that a
lawfully constituted “arm of the tribe” arrangement
could properly make such loans; nor did the indictment assert that tribal sovereign immunity was irrelevant to payday lending. Instead, the indictment
specifically alleged that the companies Neff advised
had entered into “sham business arrangements”
with tribes (Count 1, ¶20 and Count 2, ¶19), a circumstance that, if proven, would negate the otherwise fully applicable protections tribal sovereign
immunity would afford to the contracts borrowers
entered into with the tribes to get the loans. A fair
reading of the indictment would have led anyone to
anticipate that while the government would concede
that tribal immunity did render loans issued by
properly structured arms of the tribe lawful, it inA number of government witnesses, who were involved in payday lending at various levels during
this time period, each testified that their own lawyers, representatives of the Indian tribes and the
banking and lending institutions with which they
dealt and their attorneys all proceeded with tribal
payday lending without anyone issuing a warning
that the model was illegal and would subject anyone
to prosecution under the RICO statute.

3

21
tended to prove that the arrangements here did not
meet that standard, whatever that standard might
be.
But everything changed at trial. At an early
point, the government asserted that tribal sovereign
immunity was completely irrelevant to the conduct of
payday lenders, even going so far as to proclaim that
if a recognized Native American tribe, acting alone,
engaged in payday lending in a jurisdiction outside of
its own tribal lands, such a activity would be “absolutely” criminal and subject the tribe to prosecution.
An error of the most fundamental and farreaching kind then occurred when the District Court
fully embraced the government’s position and, by Its
jury charge, materially amended the indictment in a
way that radically lowered the Constitutionally required standard of proof, fatally prejudicing the defendants.
The District Court proclaimed at trial that It was
“ultimately…going to find that [the payday lending]
was illegal” and in charging the jury, dismissed any
possible applicability of the doctrine of tribal sovereign immunity by instructing the jury that:
Outside an Indian reservation, however,
absent express Federal law to the contrary, Indian tribes and members of Indian tribes are subject to state law otherwise applicable to other citizens of
that state. Tribal sovereign immunity
does not provide a tribe or its members
with any rights to violate the laws of
any states. Instead, tribal sovereign

22
immunity limits the means by which a
state can enforce its laws against an Indian tribe. Tribal sovereign immunity
does not provide a tribe or its members
with any immunity from criminal prosecution.
Pet. App. 49a.
This instruction was wrong in every material respect.
First, as this Court recognized in Kiowa Tribe of
Oklahoma v. Manufacturing Technologies, Inc., 523
US 751 (1998), tribal immunity is not confined to activities of tribes occurring on reservations, and it extends to commercial as well as government actions of
the tribe. Id., at 755. While the Court noted the policy concerns such immunity raises, It nonetheless
held that tribes enjoy immunity regarding suits on
contracts whether the subject of the contracts is
commercial or governmental and whether they are
made on or off the reservation. Id. at 760. Reform in
this area is in the purview of Congress. Id. at 758.
A decade and a half later, this Court re-affirmed
these principles in Michigan v. Bay Mills, 572 U.S.
782 (2014), holding that tribal immunity applies
whether individuals or the government brings the
action, whether the suit involves commercial or governmental acts, and whether the acts occur on the
reservation or on state land. Id. at 789-790. While
again noting that such immunity can raise legitimate
concerns about the reach of state regulations aimed
at matters such as consumer protection, the Court
nonetheless was emphatic that “it is fundamentally

23
Congress’s job, not ours, to determine whether or
how to limit tribal immunity.” Id. at 800.
The Bay Mills case is particularly compelling
since the dissent of Justice Thomas in that case,
which calls for the Court to overturn Kiowa, specifically bemoans the fact that Kiowa will allow tribal
sovereign immunity to prevent regulation in new areas specifically including payday lending, one of the
practices he notes are outside the scope of state regulations due to tribal sovereign immunity. Id. at 825.4
Moreover, tribal immunity does afford the tribe
the ability to circumvent application of state laws including, at times, those sorts of criminal statutes
meant to achieve regulatory ends.
In American Indian Law, Sixth Edition, (West
Publishing 2015), the Honorable William Canby,
Senior Judge of the United States Court of Appeals
for the Ninth Circuit, explains that from at least
1831, the Supreme Court has recognized that the inherent power of a tribe to exert sovereign immunity
is limited only by federal law. Id, at p. 76 and following. This immunity has curtailed the attempts of
states to apply criminal laws against tribes and indiThe broad reach Bay Mills gives to tribal immunity
and the impact of Judge Thomas’ reference to payday
lending as being a practice able to “escape state regulation by arranging to share profits with the tribes in
exchange for using tribal immunity” was noted by
the Harvard Law Review in 2014. Note, The Supreme Court 2013 Term, 128 Harvard Law Review,
301-305 (2014).
4

24
viduals from the tribes with regard to activities occurring outside tribal lands, where the laws being
applied seek regulatory and not prohibitory purposes. In Prairie Band Nation v. Wagnon, 475 Fed. 3d.
818 (10th Cir. 2007) the regulatory but criminal Kansas Motor Vehicle Code was held not to apply against
individuals who had their vehicles registered on
tribal lands only but operated off-reserve lands in
Kansas. A similar result was reached in Cabazon
Band v. Smith, 388 Fed. 3d. 691 (9th Cir. 2008) (California Motor Vehicle Code held inapplicable). And
this Court, in California v. Cabazon Band of Mission
Indians, 480 US 202, 209-211 (1987), found that
state restrictions on bingo and other gaming activities were regulatory in nature and inapplicable when
applied to a tribal operation.
Case law is equally clear that tribal immunity is
not just enjoyed by the tribe itself since “[w]hen the
tribe establishes an entity to conduct certain activities, the entity is immune if it functions as an arm of
the tribe.” Allen v. Gold County Casino, 464 F.3d
1044, 1046 (9th Cir. 2006).
In Williams v. Big Picture Loans, 929 F3d 170 (4th
Cir. 2019), tribal immunity was found to make Virginia’s usury laws inapplicable to payday loans made
by a proper “arm of the tribe” entity. Id. 174-177.
The 4th Circuit held that this Court has recognized
the arm of the tribe concept in Inyo County v. PaiuteShoshone Indians, 538 U.S. 701 (2003) wherein the
Court declined to permit a tribe from suing the local
district attorney under a Title VII action since the
tribe as a sovereign was not a person for those purposes. Importantly, the suit also involved as a co-

25
plaintiff the gaming corporation the tribe had set up,
and the United States conceded that “the corporation
is an arm of the tribe for sovereign immunity purposes” and was thus equally unable to press the
claim. Id. at 705, n. 1.
The Williams case also points out that while this
Court has recognized the arm of the tribe concept, It
has not yet articulated a specific test to establish
when a non-tribal entity enjoys that protection. Id. at
176. In all respects, the ruling of the Third Circuit
below and the Williams case are in direct conflict.
In the present case, all of these considerations
that a proper recognition by the District Court of
tribal sovereign immunity would have embraced
were deemed totally irrelevant. Instead, the District
Court issued, and the Circuit affirmed the categorical ruling that tribal immunity did not apply here at
all, the Third Circuit disregarding the applicability
of tribal sovereign immunity by concluding that
there was no error, plain or otherwise, because this
was a criminal prosecution and the doctrine of tribal
sovereign immunity was simply inapplicable to
RICO:
Tribal sovereign immunity thus limits
how states can enforce their laws
against tribes or arms of tribes, but,
contrary to Neff’s understanding, it does
not transfigure debts that are otherwise
unlawful under RICO into lawful ones.
See, e.g., Neff Br. 16 (“Tribal Sovereign
immunity made those loans lawful.”). A
debt can be “unlawful” for RICO purposes even if tribal sovereign immunity

26
might stymie a state civil enforcement
action or consumer suit (or even a state
usury prosecution, although tribal sovereign immunity does not impede a
state from “resort[ing] to its criminal
law” and “prosecuting” offenders, Michigan v. Bay Mills Indian Cmty., 572
U.S. 782, 796 (2014)).
Pet. App. 19a.
In reaching this conclusion, the Third Circuit
completely missed that if tribal sovereign immunity
made the loans in question lawful in the first instance that there was no collection of an “unlawful”
debt predicated on state law and therefore no plausible commission of a RICO offense as Title 18, U.S.C §
1961(6) defines “unlawful debt” in pertinent part, as
a debt (A)... which is unenforceable under State or
Federal law in whole or in part as to principal or interest because of the laws relating to usury, and (B)
which was incurred in connection with ... the business of lending money or a thing of value at a rate
usurious under State or Federal law, where the usurious rate is at least twice the enforceable rate.
Thus, despite the loans at issue not being usurious under Pennsylvania law because tribal sovereign
immunity shielded them from the reach of state usury laws, the lower court deemed them usurious as a
matter of judicial fiat, resolving in the government’s
favor the key element of the offense. This was clear
and plain error. United States v. Gaudin, 515 U.S.
506, 511 (1995).

27
Simply put, unless the government proved beyond
a reasonable doubt that the particulars of the relationships between the tribes and related companies
here did not merit the protections of tribal immunity,
the loans made were not barred by state law and
were therefore not unlawful for RICO purposes.
A host of authoritative legal commentators have
addressed this issue and concluded, as did Wheeler
Neff, that a proper arm of the tribe arrangement
made such lending legal until and unless Congress
acted to abrogate tribal immunity with respect to it.
In 2018, Professor Grant Christensen of the University of the North Dakota School of Law made the
point directly:
The payday lending cases all derive
from questions of tribal sovereignty.
Tribes are generally not subject to state
law, and tribes have used this exception
to expand their economic development
in a number of different directions.
Some tribes have opted to operate or
help facilitate payday lending because
tribal entities are otherwise exempt
from state usury laws.
Christensen, A View from American Courts: The
Year in Indian Law 2017, 41 Seattle Law Review
805, 890 (2018) (emphasis supplied).
Christensen points out that such an exemption
arises when the relationship of the tribe and its affiliated entity meets the “arm-of-the-tribe” test. Various jurisdictions have formulations for an effective

28
test, although none has yet received universal acceptance by Congress or this Court. Such a test,
when met, however, wholly justifies tribal payday
lending. Id. at 891-892.
A 2017 article in the American Indian Law Journal points out that several tribes continue to operate
payday lending businesses consistent with the
framework of tribal sovereign immunity. Bree Black
Horse, The Risk and Benefits of Tribal Payday Lending to Tribal Sovereign Immunity: Tribal Payday
Lending Enterprises are Immune Under a Proposed
Universal Arm-of-the-Tribe Test, 2 American Indian
Law Journal, 388 (2017). The regulation of payday
lending must be focused on either Congressional legislation or, on a case by case basis, when courts (or
Congress) adopt a consistent arm-of-the-tribe test
that sets an effective rubric to determine permissible
relationships within the scope of tribal sovereign
immunity. Id. at 395-396. But contrary to the District Court’s categorical dismissal of tribal immunity
in this area, the doctrine is vitally relevant:
Tribal Sovereign Immunity protects
subordinate secular or commercial entities acting as arms of a tribe from state
regulation and legal action. Tribal Sovereign Immunity may extend to the subdivisions of a tribe, including those engaged in economic activities, provided
that the relationship between the tribe
and entity is sufficiently close to properly permit the entity to share in the
tribe’s immunity. In order to determine
which tribal entities can share in a

29
tribe’s immunity, Courts implement
what is commonly referred as the “arm
of the tribe” test. Id. at 398.
See also, Note, Tribal Sovereign Immunity and the
Need for Congressional Action, 59 Boston College
Law Review, 2469, 2491 and 2502 (2018).
Professor Adam Creppele’s 2018 analysis concludes that tribal model payday lenders, on or off
tribal lands, “are entitled to sovereign immunity.”
Adam Crepple, Tribal Lending and Tribal Sovereignty, 66 Drake L. Rev. 1, 24 (2018). While courts continue to struggle to find an accepted test for an “arm
of the tribe” determination, the arms are clearly entitled to protection as well. Id. at 35-42. Another article published that same year is in accord: Richard B.
Collins, To Sue And Be Sued: Capacity And Immunity Of American Indian Nations, 51 Creighton L. Rev.
391, 421 (March, 2018) (“Tribal immunity has defeated attempts to sue lenders under such laws. This
in turn has led to criticism of this deployment of immunity.”).5

See also, Hilary B. Miller, The Future of Tribal
Lending Under the Consumer Financial Protection
Bureau, American Bar Association Business Law
Today (2013); Victor Lopez, When Lenders Can Legally Provide Loans Above 1000% Is It Time for Congress to Consider Federal Interest Cap on Consumer
Loans?, 42 Journal of Legislation 36 (2016); Shane
Mendenhall, Payday Loans: The Effect of Predatory
Lending, 32 Ok. City L. Rev. 299 (2007).
5

30
In Nathalie Martin and Joshua Schwartz’s The
Alliance Between Payday Lenders and Tribes: Are
Both Tribal Sovereignty and Consumer Protection at
Risk?, 69 Wash & Lee L. Rev. 751 (2012), the authors
make the following critical points which are echoed
in other scholarly writings:
•

The Kiowa decision precludes the
claim that tribal immunity applies
only on reservation lands.

•

Kiowa means that “[i]t is presumptively true . . . that an internetbased payday lender that is formed,
funded and run by a tribe for the
benefit of the tribe is entitled to tribal sovereign immunity.” Id. at 777;
Update on Tribal Loans to State Residents, originally published in Vol.
69, #2 of The Business Lawyer
(2013). (a Colorado trial Court even
held that if the “arms” of the tribe
were “shams” the immunity would
not be lost).

•

Tribal sovereign immunity applies to
entities that function as “arms of the
tribe” and a corporation can fulfill
that role, Id. 774, 777.

•

While payday lending can be criticized on public policy grounds, critics
must “not question the right of tribes
to utilize tribal sovereign immunity
to engage in payday lending,” p. 788;

31
Update on Tribal Loans to State Residents, supra. (“most agree that Federally recognized sovereign tribes
had the authority to engage in internet lending to state residents without those tribes being subjected to
state authority.”) Regulation of such
lending requires specific Congressional action, Id. 788.
See also, Adam Mayle, Usury on the Reservation, 31
Rev. of Banking & Fiduciary Law 1054 (2012).
And a 2019 Note reiterates these critical points:
… non-tribal payday lenders seeking to
evade state usury laws and lend to borrowers in states with interest rate caps
are often incentivized to form relationships with tribes to benefit from their
tribal sovereign immunity from state
usury laws and any suites to enforce
them. This immunity is possible if
such lenders establish legitimate
ties with a tribe because arm-ofthe-tribe entities are protected under tribal sovereign immunity.
(emphasis supplied).
Note, Tribal Lending Under CFPB Enforcements:
Tribal Sovereign Immunity and The “True Lender”
Distinction, 23 NC. Banking Institute Journal, 401,
402 (March 2019).
The wholly erroneous jury instruction on RICO
prejudiced Neff in multiple ways, each of which in-

32
dependently call for either the grant of a new trial or
dismissal of his conviction.
First, the District Court usurped the province of
the jury to determine an element of the offense, that
is, that the alleged conspiracy involved unlawful
loans. The government was thus never called upon to
prove that because of the alleged “sham business arrangements” the loans issued by the companies related to the tribes were illegal; instead, the Court
preempted that finding by declaring the loans categorically illegal. But “before a District Court may
issue an instruction permitting the jury to infer the
presence of even a single essential element from a set
of facts, the inference must, at the least, be shown
capable of leading a rational trier of fact to the conclusion that the element in question is proven to the
level demanded by the applicable standard of proof.
[citation omitted] Neither may a District Court ever
issue instructions that effectively relieve the government of proving each essential element specified
by Congress.” United v. Makkar, 810 F.3d 1139,
1143-1144 (10th Cir. 2015) (Gorsuch, J). See also,
Bennett v. Superintendent, 886 F.3d 268, 284 (3rd Cir.
2018) and United States v. Korey, 472 F.3d 89, 93 (3rd
Cir. 2007).
Second, had the Court let the jury determine
whether the loans were illegal, it would have been
clear that, to convict Neff, he would have to have
known they were illegal when he advised the companies and tribes to make them. But with its preemptive ruling that the loans were illegal, the Court then
completely confused the matter of whether Neff’s
requisite knowledge and intent needed to be

33
knowledge of illegality or, as the Court charged at
some points, was simply knowledge that a loan exceeded the rate cap in a given state. Pet. App. 46a56a. Adding to this, while the Court told the jury
that Neff had a good faith defense entitling him to
acquittal if the jury found that he honestly believed
that he was not violating the law, the Court, having
told the jury that the law made the loans illegal, also told them that Neff’s “ignorance of the law [was]
no excuse.” Pet. App. 48a. This created a fatal paradox in conflicting instructions,6 requiring a reversal.
Francis v. Franklin, 471 U.S. 307, 322 (1985).
Third, having ruled that the loans were illegal,
the District Court severely restricted Neff’s direct
testimony and denied him the right to defend by
showing the effort he made to analyze the legality of
the tribal loan model and the legitimacy of the conclusion he reached. His conclusion, confirmed by the
analysis of so many others then and now, was presented to the jury as presumptively wrong despite all
evidence to the contrary.7

Neff had requested that the Court instruct that
willfulness was the proper mens rea standard for the
RICO conspiracy offense charged here. The Court
improperly rejected that requested charge.
6

The District Court repeatedly upheld government
objections to Neff explaining the import of the cases
he reviewed and how these cases informed his judgment with respect to the tribal lending programs he
designed, the following exchange being emblematic
of the curtailment of Neff’s trial testimony:
7

34
And, finally, the evidence in this case simply did
not make out the charge brought by the government.
While the indictment charged that Neff’s clients
were involved in “sham business arrangements,” no
such proof was ever offered, and no standard for articulating what was a “sham” and what was not was
ever put to the jury for its consideration. Instead,
the illegality of the loans was given to the jury as a
fait accompli by the trial judge, despite the fact that
the prevailing view is that tribal sovereign immunity
made payday lending lawful if the loans were made
by an arm of the tribe.
Accordingly, pursuant to Rule 10(a), Rules of the
Supreme Court of the United States, certiorari
should be granted because the Circuit’s opinion, a)
conflicts with opinions by this Court and other Circuits regarding the applicability of tribal immunity;
and, b) so far departs and sanctions the lower Court’s
departure from accepted and usual judicial proceedings in the specific ways set forth above which devastated the due process rights of the petitioner that the
exercise of this Court’s supervisory power is warranted.
MR. WARREN:

Why in your mind did you
believe that was not necessary [to have the server on
tribal lands]?

WHEELER NEFF: There was a case out there,
Kiowa, that MR. DUBNOFF:

Objection, Your Honor.

THE COURT:

Sustained.

35
III. THE
TRIAL
COURT’S
JURY
INSTRUCTION WAS FUNDAMENTALLY
INCORRECT AS IT DID NOT SPECIFY
THAT WILLFULNESS WAS REQUIRED TO
PROVE A RICO CONSPIRACY.
As RICO does not contain a prescribed mens rea
in either its substantive or conspiratorial form, the
District Court was required to exercise “particular
care” to avoid construing the RICO statute to dispense with a mental state “where doing so would
‘criminalize a broad range of apparently innocent
conduct.’” Staples v. United States, 511 U.S. 600, 610
(1994).
The Third Circuit, however, concluded that there
was no error in failing to include a willfulness instruction with respect to the RICO conspiracy charge
because the collection of unlawful debt in this case
fell outside the realm of innocent conduct as a reasonable person would know that collecting an unlawful debt was unlawful. Pet. App. 12a-13a.
But in so holding, the Third Circuit overlooked
the legal community’s consensus during the period
that tribal lending was legal made giving a willfulness charge here compelling. See, Morissette v. United States, 342 U.S. 246 (1952) (theft requires proof
that a defendant did not reasonably believe item was
abandoned); Liparota v. United States, 471 US 419
(1985) (proof that the defendant knowingly acquired
food stamps is insufficient as criminal liability can
only attach where it was proven that he knew that
he acquired them illegally); Staples v. United States,
511 US 600 (1994) (proof that a defendant knew the
illegal characteristics of the weapon that made it ful-

36
ly automatic is required); Elonis v. United States,
575 U.S. 723 (2015) (where the key element of sending threats in interstate commerce was the threatening nature of the message, the government could not
simply prove a reasonable person might consider the
message to be a threat).
The jury was told that the “knowing” component
of the RICO conspiracy could be satisfied if Neff
knew what the maximum rate of interest was in
Pennsylvania and could do the math to figure out
that loans from the lending companies would exceed
it. But the jury should have been required to find
that despite the research that led him and many others to conclude that tribal sovereign immunity gave
safe harbor to these loans, Neff subjectively knew
that tribal lending was criminal usury and purposely
tried to break the law.
Accordingly, pursuant to Rule 10(a), Rules of the
Supreme Court of the United States, certiorari
should be granted because the Circuit’s opinion, a)
conflicts with opinions by this Court and other Circuits regarding the necessity of a willfulness instruction in a case of this nature; and, b) so far departs
and sanctions the lower Court’s departure from accepted and usual judicial proceedings by misstating
the elements of the offense and arbitrarily lowering
the standard of proof that the exercise of this Court’s
supervisory power is warranted.

37
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted.
ADAM B. COGAN
Counsel of Record
218 West Main Street
Ligonier, PA 15658
adamcogan@aol.com
724-995-8579
BRUCE A. ANTKOWIAK
Saint Vincent College
300 Fraser Purchase Road
Latrobe, PA 15650

March 2020

APPENDIX

1a
APPENDIX A
NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
__________
Nos. 18-2282 & 18-2539
__________
UNITED STATES OF AMERICA,
v.
WHEELER K. NEFF,
Appellant in No. 18-2282
__________
UNITED STATES OF AMERICA,
v.
CHARLES M. HALLINAN,
Appellant in No. 18-2539
__________
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
D.C. Nos. 2-16-cr-00130-001 & 2-16-cr-00130-002
District Judge: Honorable Eduardo C. Robreno
Submitted Pursuant to Third Circuit L.A.R.
34.1(a) June 27, 2019
Before: CHAGARES, GREENAWAY, JR., and
GREENBERG, Circuit Judges.
(Filed: September 6, 2019)
__________

2a
OPINION*
CHAGARES, Circuit Judge.
Charles Hallinan and Wheeler Neff were
convicted of conspiring to collect unlawful debts in
violation of the Racketeer Influenced and Corrupt
Organizations Act (RICO), federal fraud, and other
crimes. Their RICO convictions are based on their
efforts to skirt state usury laws by partnering with
American Indian tribes to offer usurious payday
loans. And their fraud convictions are based on
their defrauding consumers who sued one of
Hallinan’s payday businesses into settling their
case for a fraction of its worth. They now appeal
their convictions and sentences on numerous
grounds. We will affirm.
I.
We write for the parties and so recount only the facts
necessary to our decision.
Payday loans are a form of short-term, highinterest credit, commonly due to be repaid with the
borrower’s next paycheck. The loans are not termed
in interest rates, but rather in fixed dollar
amounts. The borrower is required to pay this
amount — termed a fee — in order to secure the
loan and is charged this amount each time the
borrower misses the due date to pay off the loan.
As a result of this cycle, the annual percentage
rates (APR) on payday loans are exceedingly high:
400% for loans made through brick-and-mortar

This disposition is not an opinion of the full court
and, pursuant to I.O.P. 5.7, does not constitute binding
precedent.

*

3a
shops on average, and 650% for those made
through the internet. Seventeen states outright
prohibit these types of loans by capping the
allowable APR on consumer loans at 36% or less.
Twenty-seven regulate these loans by imposing
licensing requirements, limiting the size of the
loans or the number of renewals, or by structuring
APR limits to a cap that would not all but assure
the prohibition of these loans. And only six states
permitted unlicensed payday lending to their
residents during the indictment period.
Hallinan has been partnering with Indian tribes to
offer payday loans since 2003. In 2008, after a falling
out with his first tribal partner, Hallinan joined up
with Randall Ginger, a self-proclaimed “hereditary
chief” of a Canadian Indian tribe. They met through
Neff, an attorney who previously worked with Ginger
and a different payday lender. In late 2008, Neff
drafted contracts by which Hallinan sold one of his
companies, Apex 1 Processing, Inc., to a sole
proprietorship owned by Ginger — although none of
Apex 1’s operations changed and Ginger never
actually became involved in them.
In March 2010, Apex 1 was sued in a class action
in Indiana for violating various state consumercredit laws. The plaintiffs sought over $13 million
in statutory damages ($2,000 for five violations
apiece against over 1,300 class members). Through
Neff, Hallinan hired an attorney to defend Apex 1.

4a
Hallinan and Neff replaced Ginger with the
Guidiville tribe, a federally recognized Indian tribe
based in the United States, in late 2010. In 2011,
they also introduced the tribe to Adrian Rubin,
Hallinan’s former payday-lending business partner,
and Neff drafted agreements to facially transfer
Rubin’s payday loan portfolio to the tribe while
Rubin continued to provide the money for the loans
and the employees to collect on them. From 2010
until 2013, Hallinan used new entities associated
with this tribe to issue and collect debt from payday
loans to borrowers across the county (including
hundreds with Pennsylvania residents) all of which
had three-figure interest rates.
In July 2013, soon after the class was certified in
the Indiana lawsuit, Neff sent Hallinan an email
warning him that he faced personal liability of up
to $10 million if the plaintiffs could prove that he
did not really sell Apex 1 to Ginger. Neff advised:
“[T]o correct the record as best we can at this
stage, and present Apex 1 as owned by Ginger as
intended, it would be helpful if [your accountant]
could correct your tax returns and remove the
reference to [Apex 1] on the returns and re-file
those returns.” Joint Appendix (“JA”) 6890. He
continued:
Also, for settlement discussion purposes,
it’s important that Apex 1 not be doing
any
further
business
other
than
maintaining a minimum net worth. For
that reason, if there is any business being
done through Apex 1, it would be very
helpful to have all such activity discontin

5a
used and retroactively transferred to
another one of your many operating
companies for the entire 2013 year. All
that will tend to confirm that Ginger
owned Apex 1 and there are only a
minimal amount of assets available for
settlement . . . .
Id. Hallinan forwarded this email to his accountant
and wrote: “Please see the seventh paragraph down re;
my tax returns. Then we can discuss this.” JA 6889.
So Hallinan called Ginger and said, “I’ll pay you
ten grand a month if you will step up to the plate
and say that you were the owner of Apex One
Processing, and upon the successful conclusion of
the lawsuit, I’ll give you fifty grand.” JA 6391.
Hallinan also falsely testified in a deposition that:
Apex 1 went out of business around 2010, he sold
Apex 1 to Ginger in November 2008, he became
vice president after the sale and only made
$10,000 a month, he resigned from Apex 1 in 2009
and stopped receiving payments, and he did not
pay Apex l’s legal fees. As Neff wrote in a later
email, the goal was “to avoid any potential
questioning . . . as to any deep pockets or
responsible party associated with Apex 1.” JA
7066. In April 2014, the plaintiffs settled the
Indiana lawsuit for $260,000, which Hallinan paid
through one of his payday-lending companies.
Later in 2014, the Government empaneled a
grand jury to investigate Hallinan and Neff’s
payday-lending scheme, as well as their conduct in
the Indiana class action (and Ginger’s as well). As
part of the investigation, the Government served

6a
subpoenas for documents on Apex l’s attorneys in
the Indiana case. They produced some documents
but withheld or redacted others as privileged
communications with their client, Apex 1. When the
grand-jury judge held that any privilege was held
by Apex 1, not Ginger, Ginger and Hallinan hired
attorney Lisa A. Mathewson to represent Apex 1
and assert its privilege. Ginger signed Mathewson’s
engagement letter as Apex 1’s “authorized
representative,”
while
Hallinan
signed
an
agreement
to
pay
Mathewson
for
her
representation. Over the course of two years,
Hallinan paid Mathewson over $400,000 to
represent Apex 1 in the grand-jury investigation.
The
Government
also
served
document
subpoenas on Hallinan’s accountant. Among other
documents, he produced the July 2013 email from
Neff that Hallinan had forwarded to him. The
Government moved to present this email to the
grand jury. The district court concluded that the
email was protected attorney work product but
allowed it to be presented to the grand jury under
the crime-fraud exception. Hallinan filed an
interlocutory appeal to this Court. We held that
the crime-fraud exception did not apply since no actual
act to further the fraud had been performed. In re
Grand Jury Matter #3, 847 F.3d 157 (3d Cir. 2017).
The grand jury indicted Neff and Hallinan and
later returned a seventeen-count superseding
indictment. The first two counts charged them with
RICO conspiracy to collect unlawful debt in
violation of 18 U.S.C. § 1962(d). Counts three
through eight charged them with defrauding and

7a
conspiring to defraud the Indiana plaintiffs, in
violation of 18 U.S.C. §§ 371, 1341, 1343. Counts
nine through seventeen charged Hallinan with
money laundering in violation of 18 U.S.C. §
1956(a)(2)(A).
Before trial, the Government moved in limine to
admit the July 2013 email. The Government’s
motion was based on the argument that the July
2013 email had furthered certain tax crimes, not
the fraud that this Court considered, and so it was
admissible under the crime-fraud exception despite
this Court’s earlier decision. After a hearing at
which Hallinan’s accountant testified, the District
Court agreed and granted the motion.
Trial took place in the fall of 2017 over ten
weeks. Neff testified extensively over the course of
four days, including about the sources he consulted
regarding the legality of tribal payday lending. The
District Court did not permit him to testify about
the details of those sources or to introduce them
into evidence, however. Hallinan and Neff were
convicted on all counts in November 2017.
In 2018, after a bench trial, the District Court
ordered forfeiture of certain assets of both
defendants. Hallinan was ordered to forfeit over
$64 million in proceeds of the RICO enterprise as
well as the funds in eighteen bank accounts and
three cars as a part of his interest in the RICO
enterprise. Neff was ordered to forfeit his legal
fees obtained from his participation in the RICO
enterprise and a portion of his interest in his
residence that corresponded with the home office
in which he facilitated the conspiracies.

8a
Then
the
District
Court
sentenced
the
defendants. As to Hallinan, the court calculated his
total offense level to be 36, resulting in a
Guidelines
range
of
188-235
months
of
imprisonment,
which
included
a
two-level
enhancement for obstruction of justice. That
enhancement was due to Hallinan’s hiring of
Mathewson to make privilege assertions on behalf
of Apex 1 in the grand jury investigation. The court
then granted a two-level downward departure
based on Hallinan’s age and poor health, and
varied down one more level under 18 U.S.C. §
3553(a), resulting in a final offense level of 33 and
a Guidelines range of 135-168 months of imprisonment. The court sentenced Hallinan to 168 months
of imprisonment followed by three years of
supervised release.
As to Neff, the Presentence Report set his offense
level for the fraud charges at level 39, which
included a 20-level upward adjustment for an
intended loss amount exceeding $9.5 million. See
U.S.S.G. § 2B1.1(b)(1)(K). That adjustment was
based on his July 2013 email to Hallinan that set
the risk of the Indiana lawsuit at $10 million. But
the court instead applied a loss amount of
$557,200, the amount of a settlement offer
extended to the Indiana plaintiffs in December
2013. The court then varied downward from the
Guidelines range of 121-151 and sentenced Neff to
96 months of imprisonment followed by three years
of supervised release.
This timely appeal followed.

9a
II.1
Hallinan and Neff challenge their convictions and
sentences on nine distinct grounds. Both defendants
challenge (A) the admission of the July 2013 email
at trial; (B) the mens rea jury instruction; (C) the
limit on Neff’s testimony; and (D) whether they
defrauded the Indiana plaintiffs of “property” under
the mail and wire fraud statutes. Neff alone
challenges (E) the tribal-immunity jury instruction;
(F) the sufficiency of the evidence against him; and
(G) the loss calculation at his sentencing. Hallinan
alone challenges (H) his obstruction-of-justice
enhancement and (I) his forfeiture and money
judgment. We address these issues in turn.
A.
We begin with the admission of the July 2013
email at trial. The District Court admitted this
email under the crime-fraud exception to attorney
work-product privilege. The crime-fraud exception
applies when “there is a reasonable basis to suspect
(1) that the privilege holder was committing or
intending to commit a crime or fraud, and (2) that
the attorney-client communication or attorney work
product was used in furtherance of that alleged
crime or fraud.” In re Grand Jury, 705 F.3d 133,
155 (3d Cir. 2012). The District Court determined
that “there is a reasonable basis to suspect that (1)
the defendants were committing or intended to
commit tax crimes, and (2) the email was used in
furtherance of those crimes,” and that this Court’s
The District Court had jurisdiction under 18 U.S.C.
§3231, and we have appellate jurisdiction under 28
U.S.C. § 1291 and 18 U.S.C. 3742(a).
1

10a
earlier decision did not “foreclose the possibility
that the email was used in furtherance of a
different crime or fraud.” U.S. Supp. App. 129. “We
review the District Court’s determination that there
is sufficient evidence for the crime-fraud exception to
apply for an abuse of discretion.” In re Grand Jury
Subpoena, 745 F.3d 681, 691 (3d Cir. 2014).
This determination was not an abuse of
discretion. The evidence suggested that Hallinan’s
sale of Apex 1 to Ginger was a sham and that
Hallinan continued to own and operate the
company. After the July 2013 email, however,
Hallinan ceased declaring this ownership on his
taxes and ceased having his accountant file tax
returns for Apex 1. This is the “actual act to
further the [crime]” that we found lacking before.
In re Grand Jury Matter #3, 847 F.3d at 160; see
26 U.S.C. § 7203 (prohibiting willfully failing to
file a return); id. § 7206(1) (prohibiting willfully
filing a return that the taxpayer “does not believe
to be true and correct as to every material
matter”). There is reason to suspect that the July
2013 email precipitated those acts, since it
instructs Hallinan to “present Apex 1 as owned by
Ginger.” JA 6890. Although Hallinan took a
different tack than Neff recommended, he
nonetheless “used [this advice] to shape the
contours of conduct intended to escape the reaches
of the law.” In re Grand Jury Subpoena, 745 F.3d
at 693; see also In re Grand Jury, 705 F.3d at 157
(“All that is necessary is that the client misuse or

11a
intend to misuse the attorney’s
furtherance of an improper purpose.”).

advice

in

The law-of-the-case doctrine does not compel a
different result. Even if we conclude that the
doctrine applies — that is, that this issue was
either expressly or by implication decided in a
prior appeal, In re City of Phila. Litig., 158 F.3d
711, 718 (3d Cir. 1998) — any error is harmless.
Far from the “lynchpin” of the Government’s
case, all this email showed was that Hallinan
and Neff acknowledged the risk the Indiana
lawsuit posed and were motivated to mitigate it.
The substantial sums that Hallinan paid to carry
out the mitigation effort alone suffice as other
evidence from which this fact could be gleaned.
B.
We turn next to the District Court’s mens rea jury
instruction. Both Neff and Hallinan argue that the
District Court should have instructed the jury that
their conduct must have been willful, not merely
knowing. The difference is that the term “knowing”
requires “only that the act be voluntary and
intentional and not that a person knows that he is
breaking the law,” United States v. Zehrbach, 47
F.3d 1252, 1261 (3d Cir. 1995), while “willful”
requires that the defendant knew that his conduct
was unlawful, see, e.g., United States v. Starnes,
583 F.3d 196, 210-11 (3d Cir. 2009). Since the
defendants raised this objection at trial, our review
is plenary. United States v. Waller, 654 F.3d 430,
434 (3d Cir. 2011).

12a
“The RICO statute itself is silent on the issue of
mens rea . . . .” Genty v. Resolution Tr. Corp., 937
F.2d 899, 908 (3d Cir. 1991). “When interpreting
federal criminal statutes that are silent on the
required mental state, we read into the statute
only that mens rea which is necessary to separate
wrongful
conduct
from
otherwise
innocent
conduct.” Elonis v. United States, 135 S. Ct. 2001,
2010 (2015) (quotation marks omitted). Some
statutes require a mens rea of willfulness to
separate wrongful from innocent conduct, but for
others, “a general requirement that a defendant
act knowingly is itself an adequate safeguard.” Id.
Compare, e.g., Liporata v. United States, 471 U.S.
419, 425 (1985) (holding that a statute prohibiting
the unauthorized possession or use of food stamps
required the defendant to know that his conduct
was unauthorized), with Carter v. United States,
530 U.S. 255, 269 (2000) (holding that a statute
prohibiting taking items from a bank “by force and
violence” does not require willfulness because “the
concerns underlying the presumption in favor of
scienter are fully satisfied” by proof of a taking at
least by force), and United States v. Int’l Minerals &
Chem. Corp., 402 U.S. 558, 564-65 (1971)
(concluding that a statute that criminalized the
violation of a regulation regarding transportation of
corrosive liquids only required a showing of
knowledge and not willfulness in part because a
company that is engaged in business involving
significant risks to the public should know of the
regulations applying to its business).
A conviction for conspiring to collect unlawful
debt does not require willfulness to distinguish

13a
innocent from guilty conduct. Collecting an
unlawful debt, like “a forceful taking,” necessarily
“falls outside the realm of the ‘otherwise innocent.’
Id. at 270. Reasonable people would know that
collecting unlawful debt is unlawful. Moreover,
those engaged in the business of debt collection,
whose risks to the public are all too familiar,
should be aware of the laws that apply to them,
particularly laws determining an aspect as
essential as how much interest they can charge.
The Government therefore need prove only that a
defendant knew that the debt collected “had the
characteristics that brought it within the statutory
definition of an unlawful debt. Staples v. United
States, 511 U.S. 600, 602 (1994). The District
Court did not err by declining to give a willfulness
instruction.
C.
Next we consider the defendants’ challenge to
the limit that the District Court imposed on
Neff’s testimony. The District Court permitted
Neff to testify about the legal sources he
consulted concerning the legality of tribal
lending, but not to testify about the details of
those sources or to introduce them into evidence.
“We review the District Court’s decisions as to the
admissibility of evidence for abuse of discretion.”
United States v. Serafini, 233 F.3d 758, 768 n.14 (3d
Cir. 2000).
This limitation was not an abuse of discretion.
Testimony about what Neff reviewed goes to his
good-faith defense — whether he honestly believed
that the debt was lawful because of tribal sovereign

14a
immunity. But Neff wanted to prove more — that
tribal immunity did make the debts lawful — and
thus to refute the District Court’s instruction to the
contrary. Such efforts to convince the jury that the
court had the law wrong “would usurp the District
Court’s pivotal role in explaining the law to the
jury.” Berckeley Inv. Grp., Ltd. v. Colkitt, 455 F.3d
195, 217 (3d Cir. 2006). The District Court rightly
limited Neff’s efforts to contest its legal
explanations before the factfinder.
Basically conceding that the District Court’s ruling
was not an abuse of discretion, Neff and Hallinan
claim instead that their constitutional right to “a
meaningful opportunity to present a complete
defense . . . must take precedence over an otherwise
applicable evidentiary rule.” Neff Br. 37; see Hallinan
Br. 44-52. The Constitution guarantees criminal
defendants “a meaningful opportunity to present a
complete defense.” California v. Trombetta, 467 U.S.
479, 485 (1984). “This right is abridged by evidence
rules that infringe upon a weighty interest of the
accused and are arbitrary or disproportionate to the
purposes they are designed to serve.” Holmes v.
South Carolina, 547 U.S. 319, 324 (2006) (quotation
marks and brackets omitted). But the Constitution
permits courts “to exclude evidence that . . . poses an
undue risk of ‘harassment, prejudice, [or] confusion
of the issues.’ Crane v. Kentucky, 476 U.S. 683, 68990 (1986) (quoting Delaware v. Van Arsdall, 475
U.S. 673, 679 (1986)); see also Holmes, 547 U.S. at
314 (“[W]ell-established rules of evidence permit
trial judges to exclude evidence if its probative
value is outweighed by certain other factors such as
unfair prejudice, confusion of the issues, or

15a
potential to mislead the jury.”). The District
Court’s limitation was not irrational or arbitrary,
but was justified by the risk that Neff s testimony
would confuse or mislead the jury about the law,
which the District Court is tasked with explaining.
D.
We turn to Neff and Hallinan’s last joint
argument: that an unvested cause of action is not
a property right protected by the federal fraud
statutes. Since they failed to raise this point
before the District Court, we review it only for
plain error. See United States v. Gonzalez, 905
F.3d 165, 182 (3d Cir. 2018). “Under plain error
review, we require the defendants to show that
there is: (1) an error; (2) that is ‘clear or obvious’;
and (3) that ‘affected the appellants’ substantial
rights.’ Id. at 182-83 (quoting United States v.
Stinson, 734 F.3d 180, 184 (3d Cir. 2013)). “If
those three prongs are satisfied, we have ‘the
discretion to remedy the error — discretion which
ought to be exercised only if the error seriously
affect[s] the fairness, integrity, or public
reputation of judicial proceedings.’” Stinson, 734
F.3d at 184 (quoting Puckett v. United States, 556
U.S. 129, 135 (2009)).
The federal mail and wire fraud statutes require
that an individual intended to defraud someone of
“money or property.” 18 U.S.C. §§ 1341, 1343. The
Supreme Court has held that these statutes are
“limited in scope to the protection of property
rights.” McNally v. United States, 483 U.S. 350, 360
(1987). “[T]o determine whether a particular
interest is property for purposes of the fraud

16a
statutes, we look to whether the law traditionally has
recognized and enforced it as a property right.” United
States v. Henry, 29 F.3d 112, 115 (3d Cir. 1994).
We do not see a plain error with applying the fraud
statutes here. The Supreme Court has upheld fraud
convictions based on schemes to defraud victims of
“[t]he right to be paid money,” which “has long been
thought to be a species of property.” Pasquantino v.
United States, 544 U.S. 349, 356 (2005). In
Pasquantino, the Court held that a country’s “right
to uncollected excise taxes” is “an entitlement to
collect money,” the possession of which is “property”
within the meaning of the wire fraud statute. Id. at
355-56. Along those lines, we recently held that the
right to the uncollected fines and costs associated
with unadjudicated traffic tickets — claims that a
motor-vehicle-code violation has taken place —
constituted “a property interest.” United States v.
Hird, 913 F.3d 332, 339-45 (3d Cir. 2019). An
unadjudicated civil cause of action is sufficiently
similar under plain-error review. Black’s Law
Dictionary defines “cause of action” as “a factual
situation that entitles one person to obtain a remedy
in court from another person.” Black’s Law
Dictionary (11th ed. 2019). An entitlement to a
remedy is like an entitlement to money (the most
common remedy). In addition, the Supreme Court
has held that “a cause of action is a species of
property protected by the Fourteenth Amendment’s
Due Process Clause.” Logan v. Zimmerman Brush
Co., 455 U.S. 422, 428 (1982); see also Mullane v.
Cent. Hanover Bank & Tr. Co., 339 U.S. 306, 313
(1950). While Neff argues that “[t]hese cases speak
of ‘property’ in the unique context of the 14th

17a
Amendment,” Neff Reply 22-23, he never explains
why they do not still illuminate “whether the law
traditionally has recognized and enforced [a cause of
action] as a property right,” Henry, 29 F.3d at 115.
This caselaw suggests that it was not an error at a
minimum, not a clear and obvious plain error — to
consider a cause of action to be property protected by
the fraud statutes.
Neff and Hallinan’s other responses are similarly
unpersuasive. They cite cases “in other contexts
[that have] concluded that there are no vested
property interests in a cause of action before final
judgment,” Hallinan Br. 41, but they cite no
authority suggesting that property rights must be
vested for the fraud statutes to protect them. They
also make a policy argument: that this theory
transfigures “misstatements during civil litigation
into a felony,” Hallinan Br. 40, which “would have
enormous ramifications in both the civil and
criminal contexts,” Neff Reply 24 n.9. But the fraud
statutes are concerned with fraud — “false
representations, suppression of the truth, or
deliberate disregard for the truth.” Third Circuit
Model Jury Instructions § 6.18.1341-1. We reject the
suggestion that “every civil litigant” commits fraud
in the regular course of litigation. Hallinan Reply
16. Finally, the rule of lenity does not require a
different conclusion: it controls “only if, after seizing
everything from which aid can be derived, we can
make no more than a guess as to what Congress
intended.” Muscarello v. United States, 524 U.S.
125, 138 (1998) (alterations and quotation marks
omitted). There is no such “grievous ambiguity or
uncertainty” here. Huddleston v. United States, 415

18a
U.S. 814, 831 (1974). Instead, “[v]aluable
entitlements like these are ‘property’ as that term
ordinarily is employed.” Pasquantino, 544 U.S. at
356 (citing Leocal v. Ashcroft, 543 U.S. 1, 9 (2004)
(“When interpreting a statute, we must give words
their ordinary or natural meaning.”), and Black’s
Law Dictionary 1382 (4th ed. 1951) (defining
“property” as “extend[ing] to every species of
valuable right and interest”)). So, it was not a plain
error to consider a cause of action to be
“property” protected by the fraud statutes.
E.
Turning now to the defendants’ individual arguments, Neff alone challenges the court’s tribalimmunity instruction. The District Court told the
jury that tribal sovereign immunity “protects
federally recognized Indian tribes from being
sued” such that “individual states do not have the
authority to apply their laws to Indian tribes,” but
that it “does not provide a tribe or its members
with any rights to violate the laws of any states”
or “with any immunity from criminal prosecution.” JA 5985-86. Neff argues that this
instruction foreclosed a debatable question:
whether an Indian tribe that lends money at
usurious rates has engaged in the “collection of an
unlawful debt” under RICO. Since he did not
object on this basis in the trial court, we review
only for plain error.
We see no plain error with respect to this
instruction. RICO defines an unlawful debt as an
unenforceable usurious one, and it looks to state or
federal law to distinguish between enforceable and

19a
unenforceable interest rates. See 18 U.S.C. §
1961(6). Sovereign immunity, on the other hand, is
simply a “common-law immunity from suit
traditionally enjoyed by sovereign powers.” Santa
Clara Pueblo v. Martinez, 436 U.S. 49, 58 (1978).
Tribal sovereign immunity thus limits how states
can enforce their laws against tribes or arms of
tribes, but, contrary to Neff s understanding, it does
not transfigure debts that are otherwise unlawful
under RICO into lawful ones. See, e.g., Neff Br. 16
(“Tribal Sovereign immunity made those loans
lawful.”). A debt can be “unlawful” for RICO
purposes even if tribal sovereign immunity might
stymie a state civil enforcement action or consumer
suit (or even a state usury prosecution although
tribal sovereign immunity does not impede a state
from “resort[ing] to its criminal law” and “prosecuting” offenders, Michigan v. Bay Mills Indian
Cmty., 572 U.S. 782, 796 (2014)). The possibility of a
successful state lawsuit is not an element of a RICO
offense. And so the tribal-immunity instruction was
not plain error.
F.
Neff also challenges the sufficiency of the
Govern-ment’s evidence against him. When
assessing challenges to the sufficiency of the
evidence, we ask only whether some rational trier
of fact could have found the essential elements of
the crime beyond a reasonable doubt when viewing
the evidence in the light most favorable to the
prosecution. See, e.g., United States v. Shaw, 891
F.3d 441, 452 (3d Cir. 2018). The answer here is
yes. For example, when Hallinan partnered with a
new tribe in 2010, it was Neff who emailed the

20a
tribe to advise them that their payday-lending
ordinance’s cap on interest at a legally enforceable
rate “would render the loan program unfeasible
from the outset,” U.S. Supp. App. 775, and would
be “a deal killer, which would require us to
immediately move on to another tribe,” JA 2979.
And it was Neff who suggested rewriting the faux
contracts to nominally grant the tribe the majority
of payday-lending revenues to make the “optics” of
them “much better” without changing the actual
negligible percentage the tribe received, but
warned that assigning the tribe the lion’s share of
the revenue “would seem bogus on its face,” would
“invite a further inquiry into the details,” and
“would be very suspicious to people.” JA 3091,
3094-95. A rational factfinder could have concluded
that Neff knowingly conspired to collect unlawful
debts.

21a
G.
Neff’s final challenge is to the District Court’s
loss calculation at his sentencing. The District
Court found that the intended loss of Neff’s fraud
on the Indiana class-action plaintiffs was $10
million — but, finding this amount overstated the
offense’s seriousness, keyed the loss for purposes
of the Guidelines to the $557,200 settlement offer
instead. Neff argues that the Indiana plaintiffs
did not actually lose $10 million, but that
argument ignores that the District Court
concluded “that the intended loss” — not the
actual loss — “was $10 million,” JA 7898, and
that under the Guidelines the relevant “loss is the
greater of actual loss or intended loss,” U.S.S.G. §
2B1.1 note 3(A). And we see no clear error with
the District Court’s factual finding about the
amount of loss Neff intended, which finds support
in the record based on Neff s assertion in the June
2013 email about a possible $10 million award to
the Indiana plaintiffs. See United States v.
Napier, 273 F.3d 276, 278 (3d Cir. 2001). An error
would have been harmless anyway, since the
District Court used the settlement offer despite
its intended-loss finding. See e.g., United States v.
Jimenez, 513 F.3d 62, 87 (3d Cir. 2008).
We also reject Neff’s contention that he intended
no “loss” at all as that term is used in the
Guidelines. He relies on our decision in United
States v. Free, 839 F.3d 308, 323 (3d Cir. 2016), but
there we merely rejected the “view that the concept
of ‘loss’ under the Guidelines is broad enough to
cover injuries like abstract harm to the judiciary.”
The “narrower meaning” of loss that we endorsed
— “i.e., pecuniary harm suffered by or intended to
be suffered by victims,” id. — encompasses the loss

22a
in this case. So we will affirm the District Court’s
loss calculation.
H.
We now turn to Hallinan’s individual challenges.
He
first
contests
the
obstruction-of-justice
enhancement applied at sentencing. See U.S.S.G. §
3C1.1. The District Court found that this
enhancement applied to Hallinan due to the hiring
of Mathewson (whom Hallinan paid) to assert
privilege on behalf of Apex 1 — in the court’s view,
a defunct company that Hallinan claimed not to
own, which would not have asserted privilege but
for Hallinan’s machinations — and his attempts to
influence Mathewson after hiring her. This
arrangement, the court concluded, amounted to “a
sham organized to protect Hallinan, and to prevent
the effective prosecution of this case.” JA 8163. We
review the factual finding that Hallinan willfully
obstructed or attempted to obstruct justice for
clear error. Napier, 273 F.3d at 278.
We are not left with the definite and firm
conviction that a mistake has been made based on
the facts and the reasonable inferences from them.
See, e.g., United States v. Grier, 475 F.3d 556, 570
(3d Cir. 2007). The trial evidence laid bare
Hallinan’s relationship with Apex 1. His own
testimony in the Indiana case was that he sold the
company to Ginger in 2008, he stopped being
involved with it in 2009, and the company ceased
doing business in 2010. Yet he funded and
orchestrated its litigation defense in that case for
years afterward, before eventually paying Ginger
$10,000 a month to “step up to the plate” and
assert ownership. JA 6391. It is a reasonable

23a
inference that Hallinan controlled Apex 1 through
Ginger and that it was his decision to hire
Mathewson to assert Apex 1’s privilege in an
attempt to impede the grand jury investigation.
Or, as the District Court put it at the August 2017
motions hearing, it was “abundantly clear that
Apex’s reason for its existence is only to assert this
privilege.” JA 326. Regardless of the validity of
Apex l’s privilege assertions, the evidence is
sufficient to conclude that the District Court’s
factual finding that Hallinan willfully obstructed
or attempted to obstruct justice was not clearly
erroneous.
I.
Finally, we turn to Hallinan’s challenges to the
District Court’s forfeiture order and calculation of
the money judgment against him. Under 18 U.S.C.
§ 1963, RICO convictions carry mandatory
forfeiture. The Government must prove the
relationship between the property interest to be
forfeited and the RICO violations beyond a
reasonable doubt. United States v. Pelullo, 14 F.3d
881, 906 (3d Cir. 1994). Since the District Court
conducted a bench trial on forfeiture after Hallinan
waived his right to a jury trial, “we review [its]
findings of facts for clear error and exercise plenary
review over conclusions of law.” Norfolk S. Ry. Co.
v. Pittsburgh & W. Va. R.R., 870 F.3d 244, 253 (3d
Cir. 2017). Hallinan contests the forfeiture order
and money judgment on three grounds. None is
persuasive.
1.
First, Hallinan challenges the forfeiture of the
funds in five bank accounts in his own name
(identified as Properties 14-18 in the forfeiture

24a
order). The District Court found that “[t]he
evidence at trial and at the forfeiture hearing
establishes that the specific property listed as
Properties 14 through 18 are funds received in
bank accounts from Hallinan Capital Corp., which
is part of the [RICO enterprise],” and so the
properties “are forfeitable pursuant to 18 U.S.C. §
1963(a)(2)(A).” U.S. Supp. App. 622. Section
1963(a)(2)(A) provides: “Whoever violates any
provision of section 1962 of this chapter . . . shall
forfeit to the United States . . . any . . . interest in .
. . any enterprise which the person has established,
operated, controlled, conducted, or participated in the
conduct of, in violation of section 1962.”
We see no clear error with the District Court’s
finding that the money in these accounts was a
part of Hallinan’s interest in the RICO enterprise.
The Government offered the affidavit and
testimony of a financial analyst to support this
finding. That evidence showed deposits from
accounts owned by Hallinan Capital Corporation
(HCC) into each of these accounts. The court found
the lowest balance in each account after the HCC
deposits to be forfeitable enterprise funds. This
finding is therefore supported by the record.
Hallinan does not dispute this evidence, but
argues only that identifying his interest in the
enterprise in this way contravenes our decision in
United States v. Voigt, 89 F.3d 1050 (3d Cir. 1996).
He is incorrect. In Voigt, we considered how to
identify “property traceable to [tainted] property”
under 18 U.S.C. § 982, not the “interest in . . . any
enterprise” under § 1963(a)(2)(A) or the meaning of
“cannot be divided without difficulty” as used in
substitute-asset provisions more broadly. While the
RICO statute also requires that the Government

25a
proceed by way of the substitute-asset provision
where property “has been commingled with other
property which cannot be divided without
difficulty,” 18 U.S.C. § 1963(m)(5), the term
“traceable to” appears nowhere in the statute.
Rather, as we acknowledged in Voigt, “[t]he RICO
forfeiture provision is by far the most far reaching”
of the criminal-forfeiture provisions because it “is
extremely broad and sweeping,” encompassing
forfeiture of “any interest the person has acquired
or maintained in violation of [§] 1962, . . . any
interest in, security of, claim against, or property or
contractual right of any kind affording a source of
influence over . . . any enterprise which the person
has established, operated, controlled, conducted, or
participated in the conduct of in violation of [§]
1962[,] . . . [and] any property constituting, or
derived from, any proceeds which the person
obtained, directly or indirectly, from racketeering
activity . . . in violation of section 1962.” Voigt, 89
F.3d at 1083-84 (quotation marks omitted)
(quoting 18 U.S.C. § 1963(a)(1)—(3)). The District
Court’s determination of Hallinan’s interest in the
RICO enterprise under § 1963 therefore did not
run afoul of our decision in Voigt. 2
2

We acknowledge that the case on which the
District Court relied also dealt with a different
forfeiture provision with a different standard of
proof See United States v. Banco Cafetero Panama,
797 F.2d 1154 (2d Cir. 1986). But even if we were
to conclude that the District Court erred, the error
would probably be harmless, since the Government
had the authority to seek forfeiture under the
substitute-asset provision and provided Hallinan
ample notice it would do so, and the District Court

26a
2.
Hallinan next argues that the District Court did not
sufficiently exclude proceeds from the six states where
payday lending is legal. This too is a factual finding
that we review only for clear error. See Norfolk S. Ry.
Co., 870 F.3d at 253.
To account for those states, the District Court
excluded 4.79% of Hallinan’s gross proceeds, which
was the percentage of “leads” (or payday-loan
candidates identified with online data) that came
from those states. Hallinan concedes that “the
government can use reasonable extrapolations to
calculate illegal proceeds.” Hallinan Br. 60. And he
gives no reason to think that the percentage of legal
leads is not a reasonable approximation of the
percentage of legal loans. He does not show, for
example, that a lead from Delaware was
meaningfully more likely to become a loan than a
lead from California. With no evidence disrupting
the reasonable inference that lead states correlate
to loan states, we cannot conclude that the District
Court’s factual finding was clearly erroneous.
Hallinan’s counterarguments rest on the fact
that very few leads became loans — only .15%.
From this, he asserts that “it was over 99% certain
that there was no correlation between leads and
loans.” Hallinan Br. 61. But the fact that few leads
became loans says nothing about whether the
distribution of leads among the states correlates
had already found that substitute assets would be
proper. See United States v. Hallinan, No. 16-13001, 2018 WL 3141533, at *5, *12-13 (E.D. Pa. June
27, 2018).

27a
with that of the loans. Hallinan also contends that
“the small sample size of the leads also make[s]
any correlation statistically insignificant.” Id. But
the Government analyzed all the leads and then
offered the reasonable inference that the
distribution among states would be the same for
the loans, which Hallinan has not rebutted. It did
not rely on a sample of leads at all. So there was
no clear error.
3.
Third, and finally, Hallinan contests the District
Court’s
interpretation
of
what
constitutes
forfeitable RICO “proceeds” under 18 U.S.C. §
1963(a)(3). When determining Hallinan’s RICO
“proceeds,” the District Court excluded “the costs
the unlawful enterprise incurs as a result of
performing the contracts” — that is, “the principal
extended to borrowers” — but not the enter-prise’s
“regular business expenses.” U.S. Supp. App. 61617 (emphasis omitted). Hallinan concedes that his
“overhead such as office space, supplies, or taxes” is
not deductible. Hallinan Br. 63. And the
Government does not challenge on appeal the
deduction of the principal of the loans (although it
did before the District Court). See Gov. Br. 150 &
n.53. The issue on appeal is a narrow one: whether the
District Court was wrong not to deduct certain
operational expenses — for example, “marketing,
credit fees, and salaries,” Hallinan Br. 63 — when
determining the RICO “proceeds” to be forfeited under
§ 1963(a)(3). Whether the term “proceeds” in §
1963(a)(3) excludes these expenses is a question of law
over which we exercise plenary review. See Norfolk S.
Ry. Co., 870 F.3d at 253.

28a
The District Court relied on the reasoning of the
Court of Appeals for the Second Circuit in United
States v. Lizza Industries, Inc., 775 F.2d 492 (2d
Cir. 1985). There, the court endorsed “deducting
from the money received on the illegal contracts
only the direct costs incurred in performing those
contracts.” Id. at 498. It explained:
Forfeiture under RICO is a punitive, not
restitutive, measure. Often proof of
overhead expenses and the like is subject
to bookkeeping conjecture and is therefore
speculative. RICO does not require the
prosecution to prove or the trial court to
resolve complex computations, so as to
ensure that a convicted racketeer is not
deprived of a single farthing more than his
criminal acts produced. RICO’s object is to
prevent the practice of racketeering, not to
make the punishment so slight that the
economic risk of being caught is worth the
potential gain. Using net profits as the
measure for forfeiture could tip such
business decisions in favor of illegal
conduct.
Id. at 498-99. In other words, the court interpreted
“proceeds” in the RICO statute to mean gross profits —
total revenues minus marginal costs, but not fixed
costs.
The District Court did not err by adopting this
reasoning to refuse to deduct the operational
expenses such as marketing, credit processing, and
collection fees from Hallinan’s forfeitable RICO
“proceeds.” Our Court has not interpreted the
meaning of “proceeds” in § 1963(a)(3), but many
other Courts of Appeals have interpreted it to mean
gross receipts — a broader definition than that

29a
adopted by the court in Lizza Industries and the
District Court here. See, e.g., United States v.
Christensen, 828 F.3d 763, 822 (9th Cir. 2015) (“We
agree with the view that ‘proceeds’ in the RICO
forfeiture statute refers to gross receipts rather
than net profits.”); United States v. Simmons, 154
F.3d 765, 770-71 (8th Cir. 1998); United States v.
McHan, 101 F.3d 1027, 1041-43 (4th Cir. 1996);
United States v. Hurley, 63 F.3d 1, 21 (1st Cir.
1995); cf. United States v. DeFries, 129 F.3d 1293,
1315 (D.C. Cir. 1997) (concluding that taxes paid on
illegal profits should not be deducted from the
calculation of RICO “proceeds”). Only the Court of
Appeals for the Seventh Circuit has interpreted
“proceeds” in § 1963(a)(3) more narrowly than the
District Court to mean net profits. See United
States v. Genova, 333 F.3d 750, 761 (7th Cir. 2003)
(explaining that proceeds in § 1963(a)(3) means
“profits net of the costs of the criminal business”);
United States v. Masters, 924 F.2d 1362, 1369-70
(7th Cir. 1991). The District Court did not err by
taking a more conservative view than that adopted
by the majority of the Courts of Appeals. Since the
District Court excluded the principal of the loans
and Hallinan does not contest the inclusion of his
overhead and taxes, we need not and do not decide
whether “proceeds” means, more broadly, gross
receipts.
III.
For these reasons, we will affirm Neff’s and
Hallinan’s judgments of conviction and sentence.

30a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
Nos. 18-2282 &18-2539
UNITED STATES OF AMERICA
v.
WHEELER K. NEFF,
Appellant in No. 18-2282
UNITED STATES OF AMERICA
v.
CHARLES M. HALLINAN,
Appellant in No. 18-2539
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Nos. 2-16-cr-00130-001 & 2-16-cr-00130-002)
SUR PETITION FOR REHEARING

31a
Present: SMITH, Chief Judge, McKEE, AMBRO,
CHAGARES,
JORDAN,
HARDIMAN,
GREENAWAY,
JR.,
SHWARTZ,
KRAUSE,
RESTREPO, BIBAS, PORTER, MATEY, PHIPPS
and *GREENBERG, Circuit Judges
The petition for rehearing filed by Appellants in
the above-entitled case having been submitted to
the judges who participated in the decision of this
Court and to all the other available circuit judges
of the circuit in regular active service, and no
judge who concurred in the decision having asked
for rehearing, and a majority of the judges of the
circuit in regular service not having voted for
rehearing, the petition for rehearing by the panel
and the Court en banc, is denied.
BY THE COURT,
s/Michael A. Chagares
Circuit Judge
Dated: November 5, 2019
Lmr/cc: All Counsel of Record

Hon. Morton I. Greenberg’s vote is limited to panel
rehearing

*

32a
APPENDIX C
Section 1341 of Title 18 of the United States Code
Annotated provided in pertinent part:
§ 1341. Frauds and swindles
Whoever, having devised or intending to
devise any scheme or artifice to defraud, or
for obtaining money or property by means of
false
or
fraudulent
pretenses,
representations, or promises, or to sell,
dispose of, loan, exchange, alter, give away,
distribute, supply, or furnish or procure for
unlawful use any counterfeit or spurious coin,
obligation, security, or other article, or
anything represented to be or intimated or
held out to be such counterfeit or spurious
article, for the purpose of executing such
scheme or artifice or attempting so to do,
places in any post office or authorized
depository for mail matter, any matter or
thing whatever to be sent or delivered by the
Postal Service, or deposits or causes to be
deposited any matter or thing whatever to be
sent or delivered by any private or commercial interstate carrier, or takes or receives
therefrom, any such matter or thing, or
knowingly causes to be delivered by mail or
such carrier according to the direction
thereon, or at the place at which it is directed
to be delivered by the person to whom it is
addressed, any such matter or thing, shall be
fined under this title or imprisoned not more
than 20 years, or both. If the violation occurs
in relation to, or involving any benefit
authorized,
transported,
transmitted,
transferred, disbursed, or paid in connection
with, a presidentially declared major disaster

33a
or emergency (as those terms are defined in
section 102 of the Robert T. Stafford Disaster
Relief and Emergency Assistance Act (42
U.S.C. 5122)), or affects a financial
institution, such person shall be fined not
more than $1,000,000 or imprisoned not more
than 30 years, or both.
18 U.S.C.A., § 1341 (Jan. 7, 2008).

34a
APPENDIX D
Section 1343 of Title 18 of the United States Code
Annotated provided in pertinent part:
§ 1343. Fraud by wire, radio, or television
Whoever, having devised or intending to devise
any scheme or artifice to defraud, or for
obtaining money or property by means of false
or fraudulent pretenses, representations, or
promises,
transmits
or
causes
to
be
transmitted by means of wire, radio, or
television communication in interstate or
foreign commerce, any writings, signs, signals,
pictures, or sounds for the purpose of
executing such scheme or artifice, shall be
fined under this title or imprisoned not more
than 20 years, or both. If the violation occurs
in relation to, or involving any benefit
authorized,
transported,
transmitted,
transferred, disbursed, or paid in connection
with, a presidentially declared major disaster
or emergency (as those terms are defined in
section 102 of the Robert T. Stafford Disaster
Relief and Emergency Assistance Act (42
U.S.C. 5122)), or affects a financial institution,
such person shall be fined not more than
$1,000,000 or imprisoned not more than 30
years, or both.
18 U.S.C.A. § 1343 (Jan. 7, 2008).

35a
APPENDIX E
Article I, Section 8 of the United
Constitution provided in pertinent part:

States

The Congress shall have Power To lay and collect
Taxes, Duties, Imposts and Excises, to pay the
Debts and provide for the common Defence and
general Welfare of the United States; but all
Duties, Imposts and Excises shall be uniform
throughout the United States;
To borrow money on the credit of the United
States;
To regulate Commerce with foreign Nations, and
among the several States, and with the Indian
Tribes;
To establish an uniform Rule of Naturalization,
and uniform Laws on the subject of Bankruptcies
throughout the United States;
To coin Money, regulate the Value thereof, and of
foreign Coin, and fix the Standard of Weights and
Measures;
To provide for the Punishment of counterfeiting
the Securities and current Coin of the United
States;
To establish Post Offices and Post Roads;
To promote the Progress of Science and useful
Arts, by securing for limited Times to Authors and
Inventors the exclusive Right to their respective
Writings and Discoveries;
To constitute Tribunals inferior to the supreme
Court;

36a
To define and punish Piracies and Felonies
committed on the high Seas, and Offenses against
the Law of Nations;
To declare War, grant Letters of Marque and
Reprisal, and make Rules concerning Captures on
Land and Water;
To raise and support Armies, but no Appropriation
of Money to that Use shall be for a longer Term
than two Years;
To provide and maintain a Navy;
To make Rules for the Government and Regulation
of the land and naval Forces;
To provide for calling forth the Militia to execute
the Laws of the Union, suppress Insurrections and
repel Invasions;
To provide for organizing, arming, and
disciplining, the Militia, and for governing such
Part of them as may be employed in the Service of
the United States, reserving to the States
respectively, the Appointment of the Officers, and
the Authority of training the Militia according to
the discipline prescribed by Congress;
To exercise exclusive Legislation in all Cases
whatsoever, over such District (not exceeding ten
Miles square) as may, by Cession of particular
States, and the acceptance of Congress, become the
Seat of the Government of the United States, and
to exercise like Authority over all
Places purchased by the Consent of the Legislature
of the State in which the Same shall be, for the
Erection of Forts, Magazines, Arsenals, dockYards, and other needful Buildings; And

37a
To make all Laws which shall be necessary and
proper for carrying into Execution the foregoing
Powers, and all other Powers vested by this
Constitution in the Government of the United
States, or in any Department or Officer thereof.
Article I, Section 8 of the United States Constitution.

38a
APPENDIX F
Section 1962 of Title 18 of the United States Code
Annotated provided in pertinent part:
§ 1962. Prohibited Activities

(a) It shall be unlawful for any person who has
received any income derived, directly or
indirectly, from a pattern of racketeering
activity or through collection of an unlawful
debt in which such person has participated as a
principal within the meaning of section 2, title
18, United States Code, to use or invest,
directly or indirectly, any part of such income,
or the proceeds of such income, in acquisition
of any interest in, or the establishment or operation of, any enterprise which is engaged in, or
the activities of which affect, interstate or
foreign commerce. A purchase of securities on
the open market for purposes of investment,
and without the intention of controlling or
participating in the control of the issuer, or of
assisting another to do so, shall not be
unlawful under this subsection if the securities
of the issuer held by the purchaser, the
members of his immediate family, and his or
their
accomplices
in
any
pattern
or
racketeering activity or the collection of an
unlawful debt after such purchase do not
amount in the aggregate to one percent of the
outstanding securities of any one class, and do
not confer, either in law or in fact, the power to
elect one or more directors of the issuer.

39a

(b) It shall be unlawful for any person through
a pattern of racketeering activity or through
collection of an unlawful debt to acquire or
control of any enterprise which is engaged in,
or the activities of which affect, interstate or
foreign commerce.
(c) It shall be unlawful for any person employed
by or associated with any enterprise engaged in,
or the activities of which affect, interstate or
foreign commerce, to conduct or participate,
directly or indirectly, in the conduct of such
enterprise’s affairs through a pattern of
racketeering activity or collection of unlawful
debt.

(d) It shall be unlawful for any person to conspire
to violate any of the provisions of subsection (a),
(b), or (c) of this section.
18 U.S.C.A. § 1962 (Nov. 8, 1988).

40a
APPENDIX G
[1] IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
CRIMINAL NOS. 16-130-1, 2
UNITED STATES OF AMERICA
v.
CHARLES M. HALLINAN (1)
WHEELER K. NEFF (2)
Philadelphia, Pennsylvania
November 20, 2017
9:54 o’clock a.m.
JURY TRIAL
BEFORE THE HONORABLE
EDUARDO C. ROBRENO
UNITED STATES DISTRICT JUDGE
APPEARANCES:
For the Government:
MARK B. DUBNOFF, ESQUIRE
JAMES A. PETKUN, ESQUIRE
U.S. Attorney’s Office
615 Chestnut Street
Suite 1250
Philadelphia, PA 19106

41a
For the Defendant Charles M. Hallinan:
EDWIN J. JACOBS, JR., ESQUIRE
Jacobs and Barbone
1125 Pacific Avenue
Atlantic City, NJ 08401
For the Defendant Wheeler K. Neff:
CHRISTOPHER D. WARREN, ESQUIRE
1730 North Fifth Street
Suite 604
Philadelphia, PA 19122
DENNIS J. COGAN, ESQUIRE
Dennis J. Cogan & Associates
2000 Market Street
Suite 2925
Philadelphia, PA 19103
Laws Transcription Service
48 W. LaCrosse Avenue
Lansdowne, PA 19050
(610)623-4178
* * *
[32] Count 1 of the indictment charges that from at
least 2007 until at least early 2013, in the Eastern
District of Pennsylvania, as elsewhere, the
Defendants Charles M. Hallinan and Wheeler K. Neff
knowingly conspired or agreed together with others
to conduct and participate in the conduct of the
affairs of an enterprise, what we may call the
Hallinan payday lending organization, through the
collection of unlawful debt.
Count 2 of the indictment charges that from at
least November 2011 until at least March of 2012, in
the Eastern District of Pennsylvania and elsewhere,
Defendant Charles M. Hallinan and Wheeler K. Neff

42a
agreed to conspire together with others to conduct or
to participate in the conduct of the affairs of an
enterprise, which we will call the Rubin payday
lending organization, through the collection of
unlawful debt.
In order to convict a defendant on the racketeering
conspiracy offense charged in Counts 1 and 2, the
Government must prove each defendant knowingly
agreed that a conspirator, which may include the
defendant himself, would commit a violation of Title
18 United States Code section 1962(c).
Section 1962(c) is commonly referred to as a RICO
statute, R-I-C-O, which stands for, is a short moniker
for Racketeering and Corrupt Organizations Act.
The relevant provision of the RICO statute
provides as follows, and I quote: “It shall be unlawful
for any person employed by or associated with any
enterprise engaged in, or the activities of which
affect, interstate or foreign commerce, to conduct or
participate, directly or indirectly, in the conduct of
such enterprise’s affairs through,” in this case, “the
collection of unlawful debt,” close quote.
It is a Federal crime for two or more persons to
agree or to conspire to commit any offense
against the United States, even if they never
actually achieve their objective.
A conspiracy is kind of a criminal partnership.
In order for you to find a defendant guilty of
conspiracy to conduct or to participate in the
conduct of an enterprise’s affairs through the
collection of unlawful debt, you must find that the
Government proved beyond a reasonable doubt
each of the following three elements: first, that

43a
two or [34] more persons agreed to conduct or to
participate, directly or indirectly, in the conduct
of an enterprise’s affairs through the collection of
unlawful debt; second, that the defendant was a
party to or a member of that agreement; and,
third, that the defendant joined the agreement or
conspiracy knowing of its objectives to conduct or
participate, directly or indirectly, in the conduct
of an enterprise’s affairs through the collection of
unlawful debt, and intending to join with at least
one other alleged conspirator to achieve that
objective. That is, that the defendant and at least
one other alleged conspirator shared a unity of
purpose and the intent to achieve the objective of
conducting or participating in the conduct of an
enterprise’s affairs through the collection of
unlawful debt.
Let me explain. The Government is not required
to prove that the alleged enterprise was actually
established; that the defendant was actually
employed by or associated with the enterprise;
that the enterprise was actually engaged in, or
its activities actually affected, interstate or
foreign commerce; or that the defendant actually
collected an unlawful debt. Indeed, it is not
necessary for you to find that the objective or
purpose of the conspiracy was achieved at all.
However, the evidence must establish that a
defendant knowingly agreed to facilitate or
further the scheme, which, if completed, would
include the collection of [35] an unlawful debt
committed by at least one other conspirator.
In short, to find Charles M. Hallinan and
Wheeler K. Neff guilty of either RICO
conspiracies, the conspiracy charged in Counts 1

44a
and 2 of the indictment, you must find that the
Government proved beyond a reasonable doubt
that the Defendant joined in an agreement or
conspiracy with another person or persons
knowing that the objective or purpose was to
conduct or to participate, directly or indirectly, in
the conduct of the affairs of an enterprise through
the collection of unlawful debt, and intended to
join with other person or persons to achieve that
objective.
Let’s break this down by elements now. I will
now instruct you to some of the general principles
applicable to the law of conspiracy. These
principles apply to the RICO conspiracy charged
in Counts 1 and 2, and they also apply to the other
conspiracies charged in the indictment.
The first element of the crime of conspiracy is
the existence of an agreement. The Government
must prove beyond a reasonable doubt that two or
more persons knowingly and intentionally arrived
at a mutual understanding or agreement, either
spoken or unspoken, to work together to achieve
the overall objective of the conspiracy, which is to
conduct or to participate, directly or indirectly, in
the conduct of the affairs of an enterprise through
the collection of unlawful debt.
The Government does not have to prove the
existence of a formal or written agreement, or an
express oral agreement spelling out the details of
the understanding. The Government also does not
have to prove that all of the members of the
conspiracy directly met or discussed between
themselves their unlawful objective, or agreed to
all of the details, or agreed to what the means
were by which the objective would be

45a
accomplished. The Government is not even
required to prove that all of the people named in
the indictment were in fact parties to the
agreement, or that all members of the alleged
conspiracy were named or that all members of the
conspiracy are even known.
What the Government must prove beyond a
reasonable doubt is that two or more persons in
some way or manner arrived at some type of
agreement, mutual understanding or meeting of
the minds to try to accomplish a common and
unlawful objective.
You may consider both direct evidence and
circumstantial evidence in deciding whether the
Government has proved beyond a reasonable
doubt that an agreement or mutual understanding
existed. You may find the existence of a conspiracy
based on reasonable inferences drawn from the
actions and statements of the alleged members of
the
conspiracy,
from
the
circumstances
surrounding the scheme, and from evidence of
related facts and circumstances which
* * *
[43] As I instructed you earlier, the objectives
of the racketeering conspiracy charged in
Counts 1 and 2 was to violate Title 18 United
States Code Section 1962(c) by participating in
the affairs of the enterprise, directly or
indirectly, through the collection of unlawful
debt.
* * *
[51] You may find that the defendant
participated, indirectly or directly, in the
conduct of the affairs of the enterprise if you

46a
find that he was a lower-level participant who
acted under the direction of upper management,
knowingly furthering the aims of the enterprise
by implementing a management decision or
carrying out the instruction of those in control,
or that the defendant knowingly performed acts,
functions or duties that were necessary to or
helpful in the operation of the enterprise.
In order to prove RICO conspiracy, the
Government must prove that the defendant agreed
that a conspirator, which could be the defendant
himself or any other conspirator, would commit a
collection of an unlawful debt. The Government is
not required that the defendant personally
collected or agreed to personally collect any
unlawful debt. Indeed, it is not necessary for you
to find that the objective or purpose of the
conspiracy was achieved at all. However, the
evidence must establish that the defendant
knowingly agreed to facilitate or further a scheme,
which, if completed, would include the collection of
unlawful debt committed by at least one other
conspirator.
A collection of unlawful debt is defined as
follows. The term unlawful debt means that; one,
the debt was unenforceable in whole or in part
under Federal or state law because of the laws
relating to usury; and, two, was incurred [52] in
connection with the business of lending money or
anything of value at a rate that was usurious
under Federal or state law where the rate was at
least twice the legally enforceable rate.
Usury is the lending of money at an illegally
high rate of interest. Pennsylvania has a legally
enforceable rate of interest; any higher rate of

47a
interest is illegal. Specifically, in Pennsylvania
the enforceable rate of interest on consumer loans
of up to $25,000 is six percent for unlicensed
lenders and approximately 24 percent for lenders
who are licensed with the Pennsylvania
Department of Banking.
Pennsylvania also has a law which makes it a
crime to charge a rate of interest higher than 25
percent per year on most loans to individuals.
The term, quote, “rate of interest,” close quote,
includes fees, charges and any other costs
associated with the loan. These Pennsylvania laws
on interest limits apply to all loans made to
Pennsylvania borrowers even if the lenders are
physically located outside of Pennsylvania and
have no offices in Pennsylvania, and even if the
borrower
signs
a
contract
agreeing
that
Pennsylvania law does not apply and that the
borrower is willing to pay an interest rate higher
than the enforceable rate of interest.
Therefore, if you believe the Government has
[53] presented evidence demonstrating that the
Defendants agreed to collect debt from loans to
borrowers living in Pennsylvania with loans at
interest rates that exceeded twice the enforceable
rate of interest, you may consider such evidence
as evidence that the Defendant agreed to collect
unenforceable debt.
Some states other than Pennsylvania also has
interest rate limits on consumer loans that are
either 36 percent per year or less. These states
include Connecticut, Georgia, Maine, Maryland,
Massachusetts, Montana, New Hampshire, New
Jersey, New York, North Carolina, Ohio, Vermont,

48a
and West Virginia. Washington, DC has an interest
rate limit of 24 percent.
If you believe the Government has presented
evidence demonstrating that the Defendant
agreed to collect debt from loans to borrowers
living in these states where the loan had interest
rates that exceeded twice the enforceable rate of
interest in those states, you may consider such
evidence as evidence that the Defendants agreed
to collect unenforceable debt.
Other states permitted some payday lending if
the lenders obtained licenses from the states and
complied with their regulations. If you believe the
Government
has
presented
evidence
demonstrating that the Defendants agreed to
collect debt from loans to borrowers living in any
of [54] those states without complying with the
law of those states, you may consider such
evidence as evidence that the Defendants agreed
to collect unenforceable debt.
To convict a defendant of conspiracy to violate
RICO, the Government is not required to prove
that a defendant knew that his acts were against
the law. Instead, a defendant must generally
know the facts that make his conduct fit into the
definition of the charged offense, even if the
defendant did not know that those facts gave rise
to a crime. Ignorance of the law is no excuse.
To prove a defendant guilty of conspiracy to
collect unlawful debt, the Government is not
required to prove that a defendant knew that the
usury rates were in the states where the
borrowers lived. For example, in the case of a
Pennsylvania, the Government does not need to

49a
prove that the Defendant Charles M. Hallinan or
Wheeler K. Neff knew that the criminal usury
rate was 25 percent for that the enforceable rate
of interest was six percent for a licensed lender,
nor does the Government have to prove that the
Defendant knew the usury laws or the
enforceable rates of interest in any other state.
Now, throughout the trial you heard testimony and
evidence regarding the concept of, quote, “tribal
sovereign immunity,” close quote. Tribal sovereign
immunity is a legal rule that protects federally
recognized Indian tribes from being sued.
Within the United States, federally recognized
Indian tribes are domestic dependent nations that
exercise inherent sovereign authority. This sovereign
authority is dependent on and subordinate to only
the Federal Government and not the states. That
means that only the Congress may decide whether
and under what circumstances to regulate activity
occurring within the boundaries of an Indian
reservation.
Unless Congress expressly permits
them to do so, individual states do not have the
authority to apply their laws to Indian tribes.
Outside an Indian reservation, however, absent
express Federal law to the contrary, Indian tribes are
subject to state law otherwise applicable to other
citizens of that state. Tribal sovereign immunity
does not provide a tribe or its members with any
rights to violate the laws of any states. Instead,
tribal sovereign immunity limits the means by which
a state can enforce its laws against an Indian tribe.
Tribal sovereign immunity does not provide a tribe or
its members with any immunity from criminal
prosecution.

50a
Now, let’s talk about the mental state that is
necessary on Counts 1 and 2.
In order to find a defendant guilty of conspiracy,
you must find that the Government proved beyond a
reasonable doubt that the defendant joined the
conspiracy knowing of its objective and intending to
help further or achieve that objective. That is, the
Government must prove that the defendant knew of
the objective or goal of the conspiracy, the collection
of unlawful debt; that the defendant joined the
conspiracy intending to help further or achieve the
goal or objective of the collection of unlawful debt;
and, three, that the defendant and at least one other
alleged conspirator shared a unity of purpose towards
that objective or goal.
You may consider both direct and circumstantial
evidence, including a defendant’s words or conduct,
and other facts and circumstances in deciding
whether that defendant had the required knowledge
and intent. For example, evidence that a defendant
derived some benefit from the conspiracy, or had
some stake in the achievement of the conspiracy or
objective, might tend to show that the defendant had
the required intent or purpose that the conspiracy
objective be achieved.
Often the state of mind, intent and/or knowledge
with which a person acts at a given time cannot be
proved directly, because one cannot read another
person’s mind and tell what he or she is thinking.
However, a defendant’s state of mind can be proved
indirectly from the surrounding circumstances.
Thus, to determine a defendant’s state of mind as to
what he intended or knew at a particular time, you
may consider evidence of what the defendant said or
what he did or failed to do, how he acted, and all of

51a
the other facts and circumstances shown by the
evidence that may prove what the defendant’s mind
was at the time.
It is entirely up to you decide what the evidence
presented during the trial proves or fails to prove
about a defendant’s state of mind. You may consider
the natural and probable result or consequences of
any act the defendant knowingly did, or whether it is
reasonable to conclude that he intended those results
or consequences. You may find, but you are not
required to find, that the defendant knew or intended
the natural and probable consequence or result of
acts he knowingly did. This means that if you find
that an ordinary person in the defendant’s situation
would have naturally realized that certainly
consequences would result from his actions, then you
may find, but you’re not required to find, that the
defendant did know and did intend that those
consequences would result from his action. This is
entirely up to you to decide as the finders of facts in
this case.
Now, the offenses charged in the indictment
require that the Government prove that the
defendant acted, quote, “knowingly,” close quote, with
respect to an element of the offense. This means that
the Government must prove beyond a reasonable
doubt that the defendant was conscious and aware of
the nature of his actions, and that the surrounding
facts and circumstances as specified in the definition
of the offense charged.
With respect to Counts 1 and 2 in particular, as I
previously explained, the Government must prove
that the defendant knew of that objective or role of
that conspiracy was the collection of unlawful debt.

52a
In deciding whether a defendant acted, quote,
“knowingly,” close quote, you may consider evidence
of what the defendant said, what the defendant did
and failed to do, how the defendant acted, and all
other facts and circumstances shown by the
defendant that may prove what was in the
defendant’s mind at the time. The Government is not
required to prove that the defendant knew his acts
were against the law.
The offense charged in the indictment also require
that the Government prove that the defendant acted
intentionally with respect to certain elements of the
offense. This means that the Government must
prove beyond a reasonable doubt either that; one, it
was the defendant’s conscious desire or purpose to act
in a certain way or to cause a certain result; or that,
two, the defendant knew he was acting in that way
and would be practically certain to cause that result.
With respect to Counts 1 and 2 in particular, as I
previously explained, the Government must prove the
defendant joined the conspiracy intending to help
further or achieve the goal or objective of the
collection of unlawful debt.
In deciding whether the defendant acted, quote,
“intentionally,” close quote, you may consider
evidence of what the defendant said, what the
defendant did or failed to do, how the defendant
acted, and all other facts and circumstances shown by
the evidence that may prove what was in the
defendant’s mind at the time.
Now, the RICO offenses charged in Counts 1 and 2
of the superseding indictment require proof beyond a
reasonable doubt that the defendant acted, as I have
just said to you, knowingly and intentionally. If you
find that the defendant acted in, quote, “good faith,”

53a
close quote, that would be a complete defense to those
charges, because good faith on the part of a defendant
would be inconsistent with his acting with knowledge
and intent.
For purposes of a RICO charge, a person acts in
good faith when he or she has an honestly held belief,
opinion, or understanding that the goal or objective of
the conspiracy was not the collection of unlawful
debt, as that term is defined in paragraph 170, even
if the belief, opinion or understanding turns out to be
inaccurate or incorrect.
Thus, in this case, if the defendant made an honest
mistake or had an honest misunderstanding about
whether the goal or objective of the conspiracy was
the collection of unlawful debt, then he did not act
with knowledge and intent.
The Defendants do not have the burden of proving,
quote, “good faith,” close quote. Good faith is a
defense that is inconsistent with the requirement of
the RICO charge that both the Defendants acted with
knowledge and intent. As I have told you, it is the
Government’s burden to prove each element of the
offense, including the mental element.
In deciding whether the Government proved that
the Defendants acted knowingly and intelligently or,
instead, whether they acted in good faith, you should
consider all of the evidence presented in the case that
may bear upon the Defendants’ state of mind. If you
find from the evidence presented that the Defendants
acted in good faith, as I have defined for you, or if you
find for any reason that the Government has not
proved beyond a reasonable doubt that the
Defendants acted knowingly and intelligently, then
you must find the Defendants not guilty of those
charges.

54a
Now, you have heard Defendant Wheeler K. Neff
testify regarding the legal sources he reviewed in
order to determine whether or not he believed that
the goal or objective of the conspiracy was the
collection of unlawful debt. You may consider Mr.
Neff’s testimony regarding these legal sources in
order to determine whether Mr. Neff’s beliefs
regarding the legality of the activities were honestly
held. You may not consider his evidence for the truth
of the matter; that is, in order to determine whether
the activities were lawful or unlawful. You also may
not consider this evidence in order to determine
whether or not his beliefs regarding the legality of
these activities were objectively reasonable. The
objective reasonableness of Mr. Neff’s belief is only
relevant to the extent you consider it for purposes of
determining whether those beliefs were honestly
held.
And as I previously instructed you, while the
lawyers in their questions and the witnesses in their
testimony, including Mr. Neff’s testimony, may
comment on the law in order to put the conduct in
context, you must accept the law from me and from
me only, even if contrary to what a witness has
testified to or what a lawyer has argued.
Now, if you find that the defendant -- strike that -to find a defendant guilty of RICO conspiracy charged
in Counts 1 and 2, you must find that the
Government proved beyond a reasonable doubt that
the defendant knew that the objective or goal of the
conspiracy was the collection of unlawful debt.
In this case, there is a question whether the
Defendants knew that the objectives or goal of the
conspiracy was the collection of unlawful debt.
When, as in this case, knowledge of a particular fact

55a
is an essential part of the offense charged, the
Government may prove that the defendant knew of
that fact even if the evidence proved beyond a
reasonable doubt that the defendant deliberately
closed his eyes to what otherwise would have been
obvious to him.
No one can avoid responsibility for a crime by
deliberately ignoring what is obvious. Thus, you may
find that a defendant knew that the objective or goal
of the conspiracy was the collection of unlawful debt
based on evidence which proved that; one, the
defendant himself subjectively believed that there
was a high probability that this fact existed; and,
two, that the defendant consciously took deliberate
action to avoid learning or knowing about the
existence of this fact.
You may not find that a defendant knew that the
object or goal of the conspiracy was the collection of
unlawful debt if you find that the defendant actually
believed that this fact did not exist. Also, you may
not find that the defendant knew the objective or goal
of the conspiracy was the collection of unlawful debt
if you find only that the defendant consciously
disregarded a risk that the fact existed, or that the
defendant should have known that the fact existed,
or that a reasonable person would have known of a
high probability that the fact existed.
It is not enough that the defendant may have been
reckless or stupid or foolish, or may have acted out of
inadvertence or accident. You must find that the
defendant himself subjectively believed there’s a high
probability of the existence of a fact that the objective
or goal of the conspiracy was the collection of
unlawful debt, consciously took deliberate action to
avoid learning or used deliberate efforts to avoid

56a
knowing about it and did not actually believe that it
did not exist.

